                                              OFFICE OF THE
                                              CHIEF FINANCIAL OFFICER

Office of Inspector General—Office of Audit




                                              FINDINGS AND RECOMMENDATIONS
                                              IDENTIFIED IN AN AUDIT OF THE
                                              CONSOLIDATED FINANCIAL STATEMENTS
                                              FOR THE YEAR ENDED SEPTEMBER 30, 2006




                                              This report was prepared by KPMG, under contract to the U.S.
                                              Department of Labor, Office of Inspector General, and by acceptance, it
                                              becomes a report of the Office of Inspector General.




                                                                       _____________________________________
                                                                       Assistant Inspector General for Audit




                                                                         Date Issued: May 16, 2007
                                                                         Report Number: 22-07-001-13-001
                                                                 Findings and Recommendations Identified in an
                                                                  Audit of the Consolidated Financial Statements



Table of Contents
                                                                                                                     PAGE

EXECUTIVE SUMMARY ................................................................................................ 3
REPORTABLE CONDITIONS ...................................................................................... 11
  Finding 1 – Lack of Strong Application Controls over Access to and
     Protection of Financial Information .................................................................. 13
  Finding 2 – Lack of Strong Logical Security Controls to Secure DOL’s
     Networks and Information ................................................................................. 15
  Finding 3 – Weaknesses Noted over Property, Plant and Equipment
     Internal-Use Software ........................................................................................ 19
     Job Corps Property............................................................................................ 21
     Other Property.................................................................................................... 26
  Finding 4 – Weaknesses Noted over Grants
     Grant Accrual Preparation and Validation ....................................................... 31
     Controls over Compliance with the Single Audit Act Amendments
     of 1996 ............................................................................................................... 33
  Finding 5 – Weaknesses Noted in the Change Control Process for a Benefits
     System ............................................................................................................... 34
  Finding 6 – Weaknesses Noted in Federal Employees Compensation Act
     (FECA) Accounting and Financial Reporting
     FECA Reconciliations ........................................................................................ 37
     Management Review of Year-end Accrual ....................................................... 38
     Delinquent Forms CA-1032, Request for Information on Earnings, Dual
        Benefits, Dependents and Third Party Settlement Form ……………………40
  Finding 7 – Lack of Segregation of Duties over Journal Entries......................... 41
  Finding 8 – Weaknesses Noted over Payroll Accounting .................................... 44
  Finding 9 – Weaknesses Noted over Budgetary Accounting .............................. 46
  Finding 10 - Weaknesses Noted over Custodial Activities .................................. 49
MANAGEMENT ADVISORY COMMENTS................................................................... 55
  1. Managerial Cost Accounting System Not Fully Implemented ........................ 57
  2. Lack of Formal Policies and Procedures for Fund Balance with Treasury
     Reconciliations Performed by the Office of the Chief Financial Officer……..58
  3. Lack of Monthly Reconciliaiton of Fund Balance with Treasury
     Undisbursed Appropriation Account Trial Balance (FMS-6654) ……………..60
  4. Lack of Procedures to Evaluate the Analysis of Doubtful Accounts
     Methodology. ……………………………………….………………………………….62
  5. SF-132, Appropriation and Reapportionment Schedule, Lacks
     Evidence of Proper Review ………………………………………………………….63
  6. Adequate Support for Certain Transactions not Provided Timely. …………..65
  7. Lack of Performance of a Complete Reconciliation of Budgetary to
     Proprietary General Ledger Account Relationship Analyses .…………..……66
  8. Errors Noted in Payroll-related Employer and Employee Contributions .…..67
  9. Inaccurate Employee Accrued Leave Amounts.…………………………………70

Prepared by KPMG LLP                                                                                                         1
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


    10. Subledger Did Not Reconcile from Period to Period... ……...………………….72
    11. Errors Noted in Accounts Receivable Aging Reports. ……..…………………..73
    12. Unemployment Compensation Advisory Council Not Established ………….74
    13. Noncompliance with the Cash Management Improvement Act of 1990 ........75
    14. Certain Improvements Needed in Financial Reporting .………………….….....77
    15. Improvements Needed in Grant Controls.………………………………………..79
    16. Grant Closeouts ……………………………………………………………………….85
    17. Federal Employees’ Compensation Act (FECA) Medical Evidence .……..….88
    18. FECA System Enhancements ……………………………………………………....89

APPENDICES    ……………………………………………………………………………...91
 APPENDIX A - Acronyms and Abbreviations ……………………………………...93




2                                                                       Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements




Executive Summary
KPMG LLP, under contract to the United States Department of Labor (DOL or the
Department), Office of Inspector General (OIG), audited the DOL’s consolidated
financial statements as of and for the year ended September 30, 2006. The audit was
conducted in accordance with auditing standards generally accepted in the United
States of America; Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 06-03,
Audit Requirements for Federal Financial Statements. The objective of the audit was to
express an opinion on the fair presentation of DOL’s consolidated financial statements.
Additionally, the objectives include expressing an opinion on DOL’s compliance with
requirements of the Federal Financial Management Improvement Act (FFMIA) of 1996
(Public Law 104-278), based on an examination.

In planning and performing the audit, DOL’s internal control over financial reporting was
considered in order to determine auditing procedures for the purpose of expressing an
opinion on the consolidated financial statements. The objective of the audit was not to
provide assurance on DOL’s internal control over financial reporting; accordingly, such
an opinion was not provided. However, certain matters were noted involving internal
control and its operation that were considered to be reportable conditions, and certain
other matters were noted that were considered to be management advisory comments.
This report was prepared to provide information to management that could help in the
development of corrective actions for the reportable conditions and management
advisory comments identified in the audit.

A separate report will be issued to the Chief Information Officer containing Management
Advisory Comments pertaining to the audit procedures performed over the
Department’s general controls and security over Information Technology (IT) systems
that support the financial statements.

Summary of Reportable Conditions and Recommendations

1. Lack of Strong Application Controls over Access to and Protection of Financial
Information

The Fiscal Year (FY) 2004 and FY 2005 Federal Information System Controls Audit
Manual (FISCAM) audits identified consistent weaknesses across the applications
tested in various application control areas. The OIG recommended that management
correct specific security weaknesses identified during the audits timely, and
coordinate efforts among the applicable agencies to develop and/or enforce
procedures and controls to address systemic application control weaknesses in
current financial management systems. In the FY 2006 audit, we noted that
weaknesses continue to exist in this area.

Prepared by KPMG LLP                                                                          3
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements



2. Lack of Strong Logical Security Controls to Secure DOL’s Networks and Information

In FISCAM testing since FY 2001, the OIG had identified continuing weaknesses with
DOL’s technical security standards and policies; access controls; and segregation of
duties. The OIG recommended that management correct specific security
weaknesses identified during the audits timely, and coordinate efforts among the
applicable agencies to develop and/or enforce procedures and controls to
address logical security weaknesses on current financial management systems.
Current year testing showed that improvements are still needed in several logical
security control areas.

3. Weaknesses Noted over Property, Plant and Equipment

Internal-Use Software

In fiscal year (FY) 2005, the OIG identified more than $109 million of internal-use
software costs that were not appropriately capitalized in accordance with U.S. generally
accepted accounting principles and DOL policy. Specifically, DOL agencies did not
capitalize software development costs, such as the direct salary and fringe benefit costs
associated with Federal employees involved with software development, and the related
indirect costs such as overhead, rent, and travel. The OIG recommended that the
Chief Financial Officer (CFO) monitor agency compliance with Federal and
departmental accounting requirements for internal-use software. Management
concurred and recorded appropriate adjustments to the year-end financial statements.
Management also agreed to monitor agency compliance and reissue guidance for
capitalizing costs of internally-developed software. However, in the FY 2006 audit, we
noted that weaknesses continue to exist in this area. We further recommend that the
CFO designate an official to be responsible for internal-use software accounting
and reporting and to perform certain procedures in this role.

Job Corps Property

The FY 2003 audit disclosed that the Employment and Training Administration (ETA)
did not establish sufficient controls to ensure that capitalized real property was
accurately recorded in the subsidiary system and general ledger.             The OIG
recommended that management record property transactions timely and make
other improvements over accounting for real property. In response to the prior year
finding and recommendations, management concurred, and developed corrective
actions designed to improve the internal controls over Job Corps real property.
However, in the FY 2006 audit, we noted the recurrence of many issues identified in
prior audits, and we identified several new property-related issues including untimely
transfer of acquisitions from the Capitalized Asset Tracking and Reporting System
(CATARS) holding account, incorrect valuation of land transferred from other Federal
agencies, and lack of documented analysis supporting the rationale for leased Job

4                                                                       Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Corps facilities not being recorded as capital leases and property. We further
recommend that management take specified actions to improve accounting for
Job Corps property.

Other Property

Our FY 2006 audit testing identified certain DOL-wide property issues, including
abnormal balances in CATARS and the lack of timely reconciliation between CATARS
and the general ledger. In addition, we tested a DOL-wide statistical sample of 200
assets to verify the assets existed and were in usable condition. For 40 of the 200
items, we did not receive timely and adequate evidence of the asset’s existence and
use. For 5 of the 200 items, the evidence provided indicated the asset had been
transferred or disposed of, and for 9 of the 200 items, the evidence provided indicated
the asset was no longer in usable condition. These 54 errors noted represented assets
with a total cost of $21,315,130 and accumulated depreciation of $14,832,034. When
projected to the entire population of assets, the projected misstatement is $81,527,396
of cost and $66,594,051 of accumulated depreciation. We recommend that
management develop and implement policies and procedures related to abnormal
balances in CATARS, reconciliations between CATARS and the general ledger,
and proper recording of acquired and disposed assets in CATARS.

4. Weaknesses Noted over Grants

Grant Accrual Preparation and Validation

During our FY 2006 audit, we identified a segregation of duties weakness related to the
ETA grant accrual, and we determined that procedures for the ETA grant accrual were
not documented. We recommend that management designate and train additional
individuals in the grant accrual and validation process to correct this weakness,
and that management formally document the grant accrual procedures.

Controls over Compliance with the Single Audit Act Amendments of 1996

DOL has no monitoring procedures in place to ensure that audits of its grantees are
completed and reports are received in a timely manner for each grantee that meets the
audit threshold in OMB Circular No. A-133, Audits of States, Local Governments, and
Non-Profit Organizations. Therefore, DOL cannot be certain that all required audits
have been performed in a timely manner. We recommend that management develop
and implement a tracking system to identify each grantee for which an OMB
Circular No. A-133 audit is required and the date that the audit report is due, and
specifically identify the related responsibilities of each agency.




Prepared by KPMG LLP                                                                          5
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements



5. Weaknesses Noted in the Change Control Process for a Benefits System

A documented and standard process for requesting, reviewing, developing, testing, and
approving changes to an Employment Standards Administration (ESA) benefits system
was not in place prior to February 2006. While change control procedures were
established and documented in February 2006, the procedures were inconsistently
followed during the months of February and March 2006, and we noted various
weaknesses in our judgmental sample of 30 changes in the two month period.
Additionally, procedures have not been established for priority and emergency changes
or changes to the system test environment. We recommend that management
correct specific security weaknesses identified during the audit and coordinate
efforts with the ESA to develop and/or enforce procedures and controls to
address change control weaknesses.

6. Weaknesses Noted in Federal Employees Compensation Act (FECA) Accounting
and Financial Reporting

FECA Reconciliations

The DOL Office of the Chief Financial Officer (OCFO) does not adequately reconcile (1)
the general ledger to the FECA subsidiary ledgers (FECA history databases), and ESA
does not adequately reconcile (2) the FECA history databases to the charge-back report
that is derived from the history databases and used to bill FECA customer agencies.
We recommend that management develop and implement quarterly procedures
for adequate reconciliations over FECA ledgers and reports.

Management Review of Year-end Accrual

DOL prepares a schedule, Liability for Current Federal Employees Compensation Act
Benefits as of September 30, which is available to other Federal agencies before fiscal
year end via the internet. The OCFO uses an estimation process to prepare this
schedule. However, management does not have procedures in place to review the
estimate for the fourth quarter DOL receivable based on the Liabilities for Current
Federal Employees Compensation Act Benefits schedule, and the estimate for the FY
2006 fourth quarter DOL receivable differed from the actual liability by approximately
$96 million. We recommend that management develop and implement procedures
for management review of the estimate and periodic refinement of the estimation
methodology.




6                                                                       Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Delinquent Forms CA-1032, Request for Information on Earnings, Dual Benefits,
Dependents and Third Party Settlement Form

DOL policy requires FECA claimants to annually certify their earnings information and
dependent status on a Request for Information on Earnings, Dual Benefits, Dependents
and Third Party Settlements Form (CA-1032). This information is used to determine if
any changes are necessary to a claimant’s benefit amount. Our FY 2006 audit tests
identified that Claims Examiners (CE) were not consistently following-up with claimants
to ensure that a CA-1032 was received annually for each claimant, as applicable;
however, payments continued to be made to non-responsive claimants. In addition, we
identified certain payments that were made at inaccurate amounts because of
inadequate CE reviews of received CA-1032s. We recommend that management
improve procedures over tracking the receipt and review of CA-1032s and
performing related management reviews.

7. Lack of Segregation of Duties over Journal Entries

The general ledger system does not require journal entries (via transaction codes) to be
entered and approved by separate individuals before they are posted. Hence,
transaction codes and corresponding amounts entered into the general ledger are
posted without any system-controlled review and approval. Various agencies do not
have manual compensating review controls over journal entries. We recommend that
management implement system controls to require supervisory approval of all
journal entries prior to their posting into the general ledger and that all agencies
implement manual compensating review controls until the system controls have
been implemented.

8. Weakness Noted over Payroll Accounting

DOL does not have policies and procedures in place to reconcile the payroll information
submitted by DOL to its third party payroll processor, the U.S. Department of
Agriculture’s National Finance Center (NFC), to ensure that data submitted is accurately
received and processed by the NFC. In addition, although payroll-related policies and
procedures have changed since October 1981, the payroll section of the Department of
Labor Manual Series (DLMS) has not been updated since that time. We recommend
that management develop and implement procedures to be performed each pay
period to reconcile the payroll information provided to the NFC to the payroll
information processed by the NFC, and that management incorporate these
procedures into a full update of the payroll section of DLMS.

9. Weakness Noted over Budgetary Accounting

The OCFO does not complete timely reconciliations related to the Apportionment and
Reapportionment Schedules (SF-132) and the Report on Budget Execution and
Budgetary Resources (SF-133). In addition, once reconciled as of June 30, 2006,
Prepared by KPMG LLP                                                                          7
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


several necessary corrections to amounts posted in the general ledger were identified
and various unexplained differences remained. Finally, although external budget-
related requirements have changed since March 2004, the budget execution section of
the DLMS has not been updated since that time. We recommend that management
develop and implement policies to ensure these reconciliations are performed
timely and completely, and that management incorporate these procedures into
an update of the budget execution section of DLMS.

10. Weaknesses Noted over Custodial Activities

Our FY 2006 audit testing identified certain issues related to the assessment and
collection of fines and penalties, including the lack of reconciliation between a
subsidiary ledger and the general ledger, the lack of procedures to ensure compliance
with certain applicable laws and regulations, improper cut-off of certain collections at
year-end, and inaccurate calculations and untimely recording of accrued interest. We
recommend that management develop and implement policies to ensure
subsidiary ledgers are reconciled periodically to the general ledger, applicable
laws and regulations are complied with, and collections and interest receivable
are recorded accurately at each period’s end.

Management Advisory Comments

Although not considered to be reportable conditions, certain other non-IT matters were
noted during the audit which we would like to bring to management’s attention. These
findings and recommendations are presented in the Management Advisory Comments
section of this report.




8                                                                       Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                                      Findings and Recommendations Identified in an
                                                                       Audit of the Consolidated Financial Statements



                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036


November 13, 2006


Mr. Samuel T. Mok
Chief Financial Officer
U. S. Department of Labor
Washington, DC 20210


Mr. Mok:

We have audited the consolidated financial statements of the United States Department
of Labor (DOL) for the year ended September 30, 2006, and have issued our report
thereon dated November 13, 2006. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget
(OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements. In
planning and performing our audit of the consolidated financial statements of DOL, in
accordance with those standards and OMB Bulletin No. 06-03, we considered DOL’s
internal control as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements, but not for the purpose
of expressing an opinion on the effectiveness of DOL’s internal control. Accordingly, we
do not express an opinion on the effectiveness of DOL’s internal control.

We noted certain matters involving internal control and its operation that we consider to
be reportable conditions under auditing standards generally accepted in the United
States of America and OMB Bulletin No. 06-03. Reportable conditions are matters
coming to our attention that, in our judgment, relate to significant deficiencies in the
design or operation of internal control and could adversely affect the organization’s
ability to record, process, summarize, and report financial data consistent with the
assertions of management in the consolidated financial statements. Our consideration
of internal control would not necessarily disclose all matters in internal control that might
be reportable conditions.

The reportable conditions noted during our audit, all of which have been discussed with
the appropriate members of management, are summarized in the Reportable
Conditions section of this report.

A material weakness is a reportable condition in which the design or operation of one or
more internal control components does not reduce to a relatively low level the risk that
errors or fraud in amounts that would be material in relation to the consolidated financial

Prepared by KPMG LLP                                                                                               9
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements



statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

Our consideration of internal control would not necessarily disclose all matters in
internal control that might be reportable conditions and, accordingly, would not
necessarily disclose all reportable conditions that are also considered to be material
weaknesses as defined above. However, none of the reportable conditions described
above is believed to be a material weakness.

Although not considered to be reportable conditions, we also noted certain matters
during our audit which we would like to bring to your attention. These items are
summarized in the Management Advisory Comments section of this report.

These conditions were considered in determining the nature, timing, and extent of the
audit tests applied in our audit of the 2006 consolidated financial statements, and this
communication does not affect our report on the consolidated financial statements
dated November 13, 2006. We have not considered internal control since the date of
our report.

This report does not contain current or prior year Management Advisory Comments
pertaining to audit procedures performed over DOL’s general controls and security over
Information Technology (IT) systems that support the consolidated financial statements.
A separate report will be issued to the Chief Information Officer containing the results of
all IT-related work conducted during the audit of the 2006 consolidated financial
statements.

This communication is intended solely for the information and use of the management
of the Department of Labor, DOL’s Office of the Inspector General, the Office of
Management and Budget, the Government Accountability Office, and the U.S.
Congress, and is not intended to be used and should not be used by anyone other than
these specified parties.

Very truly yours,




10                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements




Reportable Conditions




Prepared by KPMG LLP                                                                         11
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements




12                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Finding 1 – Lack of Strong Application Controls over Access to and Protection of
Financial Information

In the FY 2005 Federal Information System Controls Audit Manual (FISCAM) Audit
(Office of Inspector General (OIG) Report No. 23-06-009-07-001), the OIG reported
consistent weaknesses across the Department of Labor’s (DOL) applications tested in
the following application control areas:

•   Identification and documentation of supporting environments, such as process flow
    documentation and mapping;
•   Application password settings, such as passwords that do not adhere to complexity
    requirements;
•   User access, such as incomplete access request and termination forms;
•   Lack of application segregation of duties policies or enforcement of segregation of
    duties policies;
•   Periodic user account review and reauthorization, including lack of user
    authorization, or incomplete authorization documentation;
•   Audit trails, such as lack of monitoring of sensitive application functions and
    incomplete audit logs; and
•   Controls over output to other applications, including reconciliation of control totals
    and record counts.

The OIG had reported similar weaknesses as a result of FY 2004 FISCAM testing (OIG
Report No. 23-05-004-07-001). The OIG made the following recommendations:

We recommend the Chief Financial Officer and the Chief Information Officer:

• Verify that specific security weaknesses identified during the audits and
  communicated to DOL agencies are included in each individual agency’s Plan
  of Action and Milestones (POA&M), and that appropriate and timely corrective
  action is taken on the identified weaknesses; and
• Coordinate efforts among the DOL agencies to develop and/or enforce
  procedures and controls to address systemic application control weaknesses
  in current financial management systems.

From current year testing, we found the continued presence of numerous weaknesses
in the information protection controls over applications. We identified 43 prior year
recommendations, 35 from the Office of the Chief Financial Officer (OCFO), 6 from the
Employment and Training Administration (ETA), and 2 from the Employment Standards
Administration (ESA), related to application controls that have not been corrected.

These findings are a result of a breakdown in the implementation and monitoring of
Departmental processes and procedures for application controls. These application
control weaknesses could lead to users with inappropriate access to financial systems;
inefficient processes; lack of completeness, accuracy, or integrity of financial data;
and/or the lack of detection of unusual activity within financial systems. In addition, as a
Prepared by KPMG LLP                                                                        13
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


result of these weaknesses, DOL is not in full compliance with the Federal Information
Security Management Act (FISMA) passed as part of the Electronic Government Act of
2002.

OCFO Management’s Response

“The Office of the Chief Financial Officer (OCFO) is responsible for the department’s
core accounting system (i.e., Department of Labor Accounting and Related Systems –
DOLAR$), which has a defense-in-depth scheme to protect its access. For example,
user access to DOLAR$ is accomplished only from a pre-configured workstation. Any
request for access to DOLAR$ requires two levels of authorizations. First, the DOLAR$
application security officer forwards a request to the Director, Office of Financial
Systems to establish the User ID in the database (IDMS) management security utility.
Second, and only after that approval, the DOLAR$ security officer would then enable
the new user ID. To ensure privacy and prevent network sniffing (e.g., copying
sensitive information while data is being transferred on the network), OCFO has
implemented encryption for all types of access to DOLAR$.”

OCIO Management’s Response

“The report should reflect that the Office of the Chief Information Officer (OCIO) made
substantial progress during FY 2006 to strengthen application security controls in
response to the OIG’s recommendations.

A fair accounting reflects that of the 68 prior year OIG recommendations related to this
finding, 37 % (25 recommendations) are classified by the OIG as “closed”, and 54% (37
recommendations) are classified as “resolved”, with closure dependent on the outcome
of the FY 2007 OIG audit. Considering that “resolved” recommendations connotate
agreement from the OIG that the corrective measures and target completion timeframes
are reasonable, 91% of the OIG’s recommendations related to this finding have been
effectively addressed, as evidenced by their classification as either “closed” or
“resolved”.

For the remaining 9% (6 recommendations) the OIG concluded that the corrective
actions of the Office of the Chief Financial Officer (OCFO) did not adequately address
the OIG’s recommendation. In FY 2007, the OCIO will work with the OCFO to resolve
these recommendations.

The foregoing progress is the result of institutionalized improvements in monitoring and
oversight of application controls, including the following—

     •   Expanded Security Control Test & Evaluation (SCT&E) program to review
         selected security controls for all major information systems quarterly;
     •   Quarterly Control Reviews of major information systems;
     •   Quarterly and annual FISMA Reports to OMB with security and privacy metrics;

14                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


   •   Semi-annual internal e-Government Reviews of DOL component agency
       information technology investments;
   •   Coordinating the Annual FISMA Security Self-Assessment (SSA) for all major
       information systems;
   •   Revisions to the DOL Computer Security Handbook (CSH); and
   •   Implemented Secretary’s Order 14-2006, defining responsibilities with regard to
       internal controls.

These efforts, combined with the Department-wide implementation of the National
Institute of Standards (NIST) Federal Information Processing Standard (FIPS) 200,
Minimum Security Requirements for Federal Information and Information Systems, and
Special Publication (SP) 800-53, Recommended Security Controls for Federal
Information Systems on DOL major information systems, led to a significant
improvement in the consistent application of internal controls at DOL.

Building on the progress of FY 2006, the OCIO will continue to improve internal control
monitoring activities across DOL. Based on the schedule defined in the DOL NIST SP
800-53 Implementation plan, DOL agencies will complete the OCIO coordinated
implementation of SP 800-53 by January 31, 2007, two months ahead of the mandated
completion date of March 31, 2007. This effort requires that agencies address the
majority of application controls as part of the System and Information Integrity (SI)
control family. To ensure compliance with the NIST SP 800-53 required controls, the
OCIO will continue compliance verification of required control implementation through
the SCT&E program. This verification addresses all major information systems across
the Department.

Additionally, the OCIO will continue to work with the agencies to ensure that their
resolution strategies are fully implemented and documented in agency system Plans of
Action and Milestones (POA&M).”

Auditors’ Conclusion

These recommendations are considered resolved and open.        FY 2007 audit
procedures will attempt to determine whether these recommendations have been
adequately addressed and can be closed.


Finding 2 – Lack of Strong Logical Security Controls to Secure DOL’s Networks and
Information

In the FY 2005 FISCAM Audit (OIG Report No. 23-06-009-07-001), the OIG identified
continuing weaknesses with DOL’s technical security standards and policies; access
controls; and segregation of duties. The OIG had reported similar weaknesses as a
result of FY 2001, 2002, 2003, and 2004 FISCAM testing. The OIG made the following
recommendations:

Prepared by KPMG LLP                                                                         15
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


We recommend the Chief Financial Officer and the Chief Information Officer:

• Verify that specific security weaknesses identified during the audits are
  communicated to DOL agencies and included in each individual agency’s
  Plans of Action and Milestones (POA&M), and that appropriate and timely
  corrective action is taken on the identified weaknesses; and
• Coordinate efforts among the DOL agencies to develop and/or enforce
  procedures and controls to address logical security control weaknesses on
  current financial management systems.

DOL continues to lack strong logical security controls to secure its networks and
information. Current year testing showed that improvements are still needed in the
following areas:

• Technical security standards and policies need to be updated and implemented to
  include stronger logical security controls.
• Segregation of duties policies need to be created and enforced for general support
  systems of financial applications.
• Access controls need to be improved concerning account management, passwords,
  and audit log reviews.

We identified 55 prior year recommendations (7 related to the OCFO, 12 related to ETA,
23 related to ESA, and 13 related to the Office of the Assistant Secretary for
Administration and Management (OASAM)) addressing logical security controls that
have not been corrected. Additionally, 24 new recommendations related to logical
security controls were issued in FY 2006 (8 related to ETA, 6 related to ESA, and 10
related to OASAM).

These findings are a result of a breakdown in the implementation and monitoring of
Departmental processes and procedures for logical security controls. These logical
security control weaknesses could lead users to gain unauthorized access to the
agency applications and data, and allow users to potentially modify or disclose agency
data. Additionally, individuals who have the ability to perform incompatible job duties
could perform fraudulent, malicious, or accidental actions that could result in
unauthorized access, disclosure, and/or modification of DOL data. In addition, as a
result of these weaknesses, DOL is not in full compliance with the Federal Information
Security Management Act (FISMA) passed as part of the Electronic Government Act of
2002.

OCIO Management’s Response

“For better balance and improved accuracy, the report should reflect that the Office of
the Chief Information Officer (OCIO) made substantial progress during FY 2006 to
strengthen logical security controls in response to the OIG’s recommendations.


16                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


A fair accounting reflects that of the 70 prior year OIG recommendations related to this
finding, 21% (15 recommendations) are classified by the OIG as “closed” and 76% (53
recommendations) are classified as “resolved”, with closure dependent on the outcome
of the FY 2007 audit. Considering that “resolved” recommendations connote agreement
from the OIG that the corrective measures and target completion timeframes are
reasonable, 97% of the OIG’s recommendations related to this finding have been
effectively addressed, as evidenced by their classification as either “closed” or
“resolved”.

For the remaining 3% (2 recommendations) the OIG concluded that the corrective
actions taken by the Employment Standards Administration (ESA) did not adequately
address the OIG’s recommendations. In FY 2007, the OCIO will work with the ESA to
resolve these recommendations.

The foregoing progress is the result of institutionalized improvements in monitoring and
oversight of logical security controls, including the following—

   •   Expanded the Security Control Test & Evaluation (SCT&E) program to review
       selected logical security controls for all major information systems quarterly,
       including the testing of logical access controls in FY 2006, Q3;
   •   Quarterly and annual FISMA Reports to OMB with security and privacy metrics;
   •   Coordinating the Annual FISMA Security Self-Assessment (SSA) for all major
       information systems;
   •   Executed significant revisions to the DOL Computer Security Handbook (CSH);
       and
   •   Implemented Secretary’s Order 14-2006, defining responsibilities with regard to
       internal controls.

DOL component agencies also began the implementation of the National Institute of
Standards (NIST) Federal Information Processing Standard (FIPS) 200, Minimum
Security Requirements for Federal Information and Information Systems, and Special
Publication (SP) 800-53, Recommended Security Controls for Federal Information
Systems, using the DOL NIST SP 800-53 Implementation Plan. This led to a significant
improvement in the consistent application of logical security controls for all DOL major
information systems.

Building on the progress of FY 2006, the OCIO will continue to improve logical security
control monitoring activities across DOL. Based on the schedule defined in the DOL
NIST SP 800-53 Implementation plan, DOL agencies will complete the OCIO
coordinated implementation of SP 800-53 by January 31, 2007, two months ahead of
the Federal mandated completion date of March 31, 2007. This effort requires that
agencies address the majority of general system support controls as part of the Access
Control (AC) and Identification and Authentication (IA) families of controls. To ensure
compliance with the NIST SP 800-53 required controls, the OCIO has initiated
compliance verification of required control implementation through the SCT&E program.

Prepared by KPMG LLP                                                                         17
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


This verification is currently underway and addresses all major information systems
across the Department.

Additionally, the OCIO will continue to work with the agencies to ensure that their
resolution strategies are fully implemented and documented in agency system Plans of
Action and Milestones (POA&M).”

OCFO Management’s Response

“The Department’s core financial system (i.e. DOLAR$) has implemented controls such
as role-based access and separation of duties embedded in its operations. While these
network related finding could present a risk to DOLAR$, its financial information will be
minimally, if at all, impacted as a result of such vulnerabilities.

With regards to the PeoplePower system, guidance from the Office of Management and
Budget (OMB) and the Office of Personnel Management (OPM), which are aligned with
several Presidential Management Agenda (PMA) efforts, has limited funding for
PeoplePower. Consequently, enhancement and mitigation strategies that would have
normally been considered to address this finding have been restrained by the fact that
OCFO management is prohibited from undertaking expenditures that are not strictly tied
to the goal of maintaining the system in its current operational state. Nevertheless,
within the context of the aforementioned constraints, OCFO will adopt mitigating
controls where possible and practical.”

Auditors’ Conclusion

These recommendations are considered unresolved pending completion of corrective
action plans with specified timeframes for implementation.

In response to the OCIO comment that 76% of the recommendations are resolved, a
resolved recommendation is defined as:

1) The agency providing a positive/negative response to the condition;
2) A corrective action plan detailing the steps that will be taken to correct the issue; and
3) A date as to when the corrective action will be completed.

A resolved recommendation has not been verified by the OIG or the auditor in order to
assess that the appropriate corrective action has been taken to properly close the
recommendation. A resolved recommendation should not be construed, for audit
purposes, to present a conclusion that the weaknesses were effectively addressed.

In response to the OCFO comment regarding the PeoplePower recommendation, while
we understand that OMB has limited funding for enhancement and mitigation strategies
for the PeoplePower application, we are required to continue to present these findings
as weaknesses that present risks to the integrity of DOL financial data.

18                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements



Finding 3 – Weaknesses Noted over Property, Plant and Equipment

DOL did not consistently implement or follow policies and procedures designed to
ensure that property, plant and equipment (PP&E) balances, including construction-in-
progress, are stated in accordance with Federal accounting standards.

Internal-Use Software

In the FY 2005 Findings and Recommendations to the Chief Financial Officer (OIG
Report No. 22-06-001-13-001), the OIG identified that DOL has not capitalized all
project costs for internal-use software, such as (1) direct salary and fringe benefit costs
of Federal employees involved and (2) related indirect costs such as overhead, rent,
and travel, in accordance with Statement of Federal Financial Accounting Standard
(SFFAS) No. 10, Accounting for Internal Use Software. As a result, the balances in
Department of Labor Accounting and Related Systems (DOLAR$) asset account 1830 -
Information Technology Software, and the related account 1839 - Accumulated
Amortization Automated Data Processing (ADP) Software, were understated, and the
current annual expense was overstated. The OIG determined there were 22 internal-
use software projects either developed or completed during FYs 2004 and 2005 for
which the agencies did not initially capitalize the costs. Subsequent actions taken by
the OCFO ensured internal-use software relating to direct cost was accurate by the end
of FY 2005.

In the FY 2005 report, the OIG made the following recommendation:

We recommend OCFO again notify DOL agencies of their requirements to
account for costs related to internal-use software and monitor to ensure they
properly account for these costs in accordance with Federal and departmental
requirements.

During FY 2006, the OCFO re-issued relevant guidance to the agencies. Although the
OCFO has informally been communicating with the agencies to monitor the
implementation of this guidance, no documentation exists to support this monitoring and
the OCFO did not maintain a listing of internal use software projects in development. In
addition, no one in the OCFO has been designated to be responsible for the
Department’s internal-use software accounting and reporting to ensure the amounts
recorded in the Department’s subsidiary ledger, the Capitalized Asset Tracking and
Reporting System (CATARS), is correct for internal-use software assets.

We also noted that although the guidance issued discusses transaction codes used to
record related indirect costs, the guidance does not provide detailed enough instructions
on how indirect costs related to internal-use software should be captured, calculated,
and documented. Also, the OCFO has not developed an analysis to support its position
that the amount of indirect costs associated with the development of internal-use
software is not material to the financial statements.
Prepared by KPMG LLP                                                                         19
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements



Therefore, the status of this recommendation is changed from resolved and open to
unresolved pending completion of a corrective action plan with specified timeframes for
implementation. Additionally, we make the following new recommendations that should
be specifically addressed in this corrective action plan.

Recommendations

We recommend the Chief Financial Officer:

1. Designate an official within the OCFO to be responsible for DOL’s internal-use
   software accounting and reporting.

2. Develop and implement a quarterly reporting process for all agencies to report
   the status and costs of software projects in development, and maintain a
   current, comprehensive listing of all software in development projects based
   on this quarterly reporting.

3. Develop and implement a review process to determine that each agency is
   reporting all costs that are required to be capitalized.

4. Develop and implement procedures to compare the internal-use software
   assets and amounts recorded in CATARS to the internal-use software assets
   and amounts reported by the agencies.

5. Perform, document, and maintain an analysis of indirect costs associated with
   software in development to determine whether or not these costs are material.

OCFO Management’s Response

“The OCFO disagrees with the OIG decision to change the status from resolved and
open to unresolved.

From FY 2005 through FY 2006, OCFO has made substantial progress on the
capitalization of internal use software in response to previous OIG recommendations.
Specifically, OCFO provided guidance and assistance and monitored agencies in the
capitalization of internal-use software projects. Additionally, various agencies have
continued to do monthly and/or quarterly entries in DOLAR$ to record contractors’
costs, federal salaries, travel, and other costs into CIP.

On April 20, 2006, OCFO re-issued a memorandum for agency administrative officers
and agency financial officers updating the department’s policy on Management of
Capitalized Assets. In addition to the memorandum, OCFO established a Property
Management webpage to provide the agencies with information concerning Federal
Law, Regulations, and DOL policies that relate to the accounting for all types of
property.
20                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements



Last July, the OCFO designated a senior accountant to monitor the capitalized assets.
The individual provided guidance to the agency CAMO’s, conducted a year-end meeting
to review responsibilities, and completed reconciliations for June and September
between CATARS and DOLAR$. This individual is responsible for monitoring PP&E,
including internal-use software, and reviewing the CATARS CIP file to ensure that
agencies are capitalizing costs for projects identified by the agency management as
internal-use software.

Additionally, OCFO maintained contact with DOL financial managers inquiring about
any new internal-use software projects for their agencies. To further enhance the
capitalization of internal-use software, the OCFO will require a quarterly reporting
process for all agencies to report the status or any new projects that meet the
capitalization threshold. Recommendation # 2 will be completed and implemented by
January 31, 2007.

We do not agree with the finding that DOL agencies did not capitalize software
development costs, such as the direct salary and fringe benefit costs associated with
Federal employees involved with software development, and the related indirect costs
such as overhead, rent, and travel. For example, OCFO has been capitalizing the cost
for the new accounting system, including federal employees’ salaries, travel, rent, and
other costs. OCFO will develop and implement a review process to ensure that each
agency is capitalizing all appropriate costs. Recommendation # 3 will be completed by
January 31, 2007.

OCFO will enhance procedures to compare the internal-use software assets recorded in
CATARS to the amounts reported by the agencies. Recommendation # 4 will be
completed by January 31, 2007.

OCFO will perform, document, and maintain an analysis of indirect cost associated with
software in development to determine whether these costs are material.
Recommendation # 5 will be completed by January 31, 2007.”

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2007 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

Job Corps Property

In the FY 2004 audit (OIG Report No. 22-05-001-13-001), the OIG reported that the
Employment and Training Administration (ETA) did not sufficiently use CATARS as a
complete property management system in accordance with the CATARS user guide.
The OIG also found that ETA did not establish sufficient controls to ensure that Job
Corps’ capitalized real property was accurately reported in CATARS and in DOLAR$.
Prepared by KPMG LLP                                                                         21
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements



In the FY 2004 report, the OIG made the following recommendations:

We recommend the Chief Financial Officer and the Assistant Secretary for
Employment and Training ensure that additions and dispositions are recorded
timely in CATARS by developing and implementing quarterly procedures to:

• Transfer CIP balances recorded in CATARS to the appropriate depreciable-
  asset account, where the Division of Budget and Facilities Support (DBFS)
  records of contracts/structures indicate that Certificates of Substantial
  Completion have been issued;
• Reconcile DBFS records for dispositions to the Architecture and Engineering
  (A&E) contractor records and to entries in CATARS; and
• Reconcile DBFS records of additions and deletions to Office of Financial and
  Administrative Services (OFAS) records of additions and deletions recorded in
  CATARS.

In the FY 2005 audit, the OIG noted that ETA had developed the appropriate policies
and procedures to implement the above recommendations in the issuance of Section
4.5.2 of its National Accounting Policies and Procedures Manual. However, the testing
of additions and dispositions in FY 2005 identified instances where such procedures
were not consistently applied resulting in instances where completed projects continued
to be carried in construction-in-progress (CIP) and assets that had been disposed were
continuing to be carried in CATARS and DOL’s financial statements.

In the FY 2006 audit, we noted the recurrence of many issues identified in prior audits.
We believe that many of these issues stem from the fact that the ETA Capitalized Asset
Management Officer (CAMO) position remained vacant for much of the fiscal year under
audit. Additionally, during FY 2006, the Job Corps program was transferred from ETA
to a separate office within the Office of the Secretary. As a result, we noted the
following issues in our FY 2006 audit of ETA and Job Corps PP&E:

• An acquisition that was not transferred from the CATARS holding account timely.
• Projects amounting to approximately $61.7 million that were completed primarily in
  FY 2005 or prior but were not transferred from CIP to the appropriate in-service
  PP&E account until September 2006.
• 54 buildings being used at a Job Corps Center site for staff housing that are not in
  CATARS with no explanation as to why they are not included in CATARS.
• Land assets that were transferred to the DOL Job Corps program from another
  Federal agency that are reflected in CATARS at a fair value of $7 million, when the
  carrying value on the books of the other Federal agency was less than $100,000.
• 40 disposal transactions of the 140 selected for testing that were not supported by
  an appropriately executed Transaction Form/Survey Report DL-55C in accordance
  with DOL policies and procedures or that are not recorded in the correct period (100
  disposals of 140 were recorded as disposals in FY 2006 but were disposed of in
  prior years; as a result, the asset account historical cost and accumulated
22                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


  depreciation were overstated by approximately $2,476,163 and $1,929,351,
  respectively).
• Lack of documented analysis to support the rationale for leased Job Corps facilities
  not being recorded as capital leases and PP&E of the Job Corps program.
• Documentation to support PP&E related transactions or balances were not readily
  available or did not exist. Specifically, we were unable to obtain sufficient audit
  evidence for:

    •   Disposal documentation for three of five Job Corps disposals selected for testing
    •   Invoices for 4 of 50 CIP additions
    •   Approval memos for 3 of 50 CIP additions
    •   The period of performance for 47 of 50 CIP obligating documents
    •   Payment information linking to the obligation for 11 of 50 CIP sample items
    •   Documentation for 14 of 50 CIP-related UDO balances
    •   Existence of 239 of 345 Job Corps equipment items

• Assets that no longer exist or are not in usable condition continue to be carried in
  CATARS; specifically, 11 of 345 Job Corps assets selected for testing should have
  been recorded as disposed.
• Serial numbers on the assets do not agree to the serial numbers in CATARS. For 7
  of 345 Job Corps items tested, the serial numbers on the assets did not agree to the
  serial numbers in CATARS.
• Controls over transfers from CIP to the related asset account, including the proper
  completion and authorization on the Substantial Completion Information Summary,
  the Certificate of Substantial Completion, and the review of the associated DL 1-55c,
  were not being performed for most of the fiscal year.

The Government Accountability Office’s (GAO) Standards for Internal Control in the
Federal Government state that “Transactions should be promptly recorded to maintain
their relevance and value to management in controlling operations and making
decisions. This applies to the entire process or life cycle of a transaction or event from
the initiation and authorization through its final classification in summary records. In
addition, control activities help to ensure that all transactions are completely and
accurately recorded.” In addition, “Internal control and all transactions and other
significant events need to be clearly documented, and the documentation should be
readily available. The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic format.
All documentation and records should be properly managed and maintained.”

The Department of Labor Manual Series (DLMS) 6 Chapter 700 section 732.4a states,
“The CAMO will record in the CATARS system capitalized asset transactions for
acquisitions, repairs and maintenance, betterments and extraordinary repairs, removals
from service, disposals, adjusting entries as a result of the annual physical count and
system reconciliation, and changes in accounting estimates for residual value, and
useful life.”

Prepared by KPMG LLP                                                                         23
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


OMB Circular No. A-127 incorporates, by reference, all federal financial management
systems requirements published by JFMIP (the Joint Financial Management
Improvement Program). Per JFMIP Property Management Systems Requirements, the
core financial system must:

• Capture quantity, date of physical receipt or date real property is available for use or
  placed into service, and condition of item received when a condition assessment was
  made.
• Capture the acquisition cost of an asset and any changes in the valuation, where
  applicable for reporting purposes.
• Capture the estimated useful life, depreciation/amortization/depletion method, and
  salvage/residual value for each asset or group of assets, when applicable.

Federal law (31 U.S.C. 3512 (c) (B)) requires the Department to maintain effective
control over, and accountability for, assets for which the agency is responsible, and to
safeguard these assets against waste, loss, unauthorized use and misappropriation.

SFFAS No. 6 paragraph 31 states, “The cost of general PP&E transferred from other
Federal entities shall be the cost recorded by the transferring entity for the PPE net of
accumulated depreciation or amortization. If the receiving entity cannot reasonably
ascertain those amounts, the cost of the PP&E shall be its fair value at the time
transferred.”

Based on these facts noted as part of our FY 2006 audit, we revised the status of the
recommendations related to this finding from resolved and open to unresolved.
Additionally, we make the following new recommendations that are intended to address
the specific issues identified during our FY 2006 audit.

Recommendations

We recommend the Chief Financial Officer, the Assistant Secretary for
Employment and Training, and the Director of Job Corps:

1. Develop and implement procedures to review the acquisitions in the CATARS
   holding account on a timely basis.

2. Develop and implement procedures, including improved communication
   methods between DBFS and the Job Corps property accounting officer, to
   transfer completed projects from CIP to the appropriate in-service PP&E
   account on a timely basis.

3. Perform an inventory of all Job Corps Center buildings being used for staff
   housing and determination of whether or not they should be included in
   CATARS.

4. Reemphasize existing policies and accounting standards for recording
24                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


   capitalized assets that are transferred from other Federal agencies, and
   correct for the overvaluation of the land assets noted above.

5. Provide additional training for property officers to ensure they use an
   appropriately executed Transaction Form/Survey Report DL-55C for all
   property dispositions and the disposals were recorded in the correct
   accounting period.

6. Develop and maintain an analysis to support the basis for not capitalizing
   existing Job Corps facility leases, and implement procedures to document an
   assessment of new leases to ensure compliance with accounting standards
   for leases.

OASAM Management’s Response

“The Employment and Training Administration (ETA) made significant progress towards
closing out the FY 2004 audit findings by implementing procedural changes in the
documentation of Job Corps facilities and the recording of substantially completed
construction projects into CATARS. However, the implementation of many of these
procedural improvements was suspended after hurricane Katrina destroyed the New
Orleans and Gulfport Job Corps Centers. Job Corps Division of Budget and Facilities
Support (DBFS) efforts were diverted to ensuring the safety of Job Corps students and
counselors in those areas and re-establishing facilities for the Job Corps program in
these areas. Efforts were further delayed as the Congress transferred the Job Corps
program from ETA to the Office of the Secretary in the FY 2006 Labor, HHS, and
Education Appropriation Act, thereby transferring administrative support for the Job
Corps program from ETA to the Office of the Assistant Secretary for Administration and
Management (OASAM).

With completion of the transfer in August 2006, OASAM has initiated a full-scale review
of the program’s policies and procedures to accommodate proper accounting in DOL
financial systems, including CATARS, for Job Corp Property, Plant, & Equipment as
well as Job Corps personal property. This review is being conducted by OASAM’s
Capital Asset Management Officer (CAMO), who has substantial experience in the
Department’s policies and procedures for asset management. This review will address
all of the OIG findings as noted above and will result in the implementation of corrective
action that will bring the recording of Job Corps assets into compliance with
Departmental and federal government standards. The OASAM CAMO will work closely
with Job Corps property management staff to provide additional training and
reemphasize the Department’s policy for property management and build upon ETA’s
efforts to timely record transactions. All corrective actions will be completed and
documented by the end of FY 2007.”




Prepared by KPMG LLP                                                                         25
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


OCFO Management’s Response

“This year, OCFO significantly increased monitoring activities. To that end, OCFO
designated a senior accountant to monitor capitalized assets. The staff provides
assistance to the agency CAMO’s and APO’s, and conducts meetings with CAMO’s to
monitor compliance.       As discussed in management’s response to ‘Internal-Use
Software’, the staff reviews the CIP and the holding file, and the CATARS for abnormal
balances.”

Job Corps Management’s Response

No separate response was provided as Job Corps has now been transferred to
OASAM, whose response is noted above.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2007 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

Other Property

Our FY 2006 audit testing disclosed the following DOL-wide property issues:

•    Abnormal balances exist in CATARS that should be researched and resolved,
     including:

     •   14 buildings capitalized in FY 2002 or after, totaling $1,755,157, which appear to
         be below the $500,000 capitalization threshold for buildings
     •   248 equipment assets capitalized in FY 2002 or after, totaling $2,275,848, which
         appear to be below the $50,000 capitalization threshold for equipment
     •   92 information technology software assets capitalized in FY 2002 or after, totaling
         $6,837,513, which appear to be below the $300,000 capitalization threshold and
     •   Negative additions of approximately $2,460,669 on the June 30, 2006 PP&E
         rollforward schedule)

• Reconciliations between CATARS and the general ledger are not performed timely.
  Of the 53 June 30, 2006 reconciliations we selected for testing, 32 were not
  provided, 19 did not contain sufficient evidence of when the reconciliations were
  actually performed, and 2 had no issues.
• Documentation to support certain PP&E-related transactions or balances was not
  readily available or did not exist. Specifically, we were unable to obtain sufficient
  audit evidence for:
  • 16 assets sold to the General Services Administration
  • 65 non-CIP and non-software in development additions
  • 8 of 27 obligating documents and invoices for software in development additions
26                                                                       Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


    • 13 of 27 Form DL 1-55c for software in development additions
•   For additions other than CIP and non-software in development, we noted 5 instances
    where an obligating document was signed by an unauthorized person, and 1
    instance where the Contracting Officer signed an obligating document in excess of
    the officer’s warrant authority.
•   We identified 12 capitalized PP&E additions for which the unit cost was below the
    capitalization threshold.
•   We noted 6 capitalized items that represented costs incurred after the software was
    placed in service and were not software enhancements. These costs should have
    been expensed in accordance with U.S. generally accepted accounting principles.
•   We identified 5 items related to Employee Benefits Security Administration software
    that were capitalized based on obligations rather than costs.
•   Physical inventories are not being adequately performed and documented. Of the
    1,763 physical inventory reports we requested, 1,486 were not provided to us. In
    addition, 30 of the reports we reviewed were not certified by the Accountable
    Property Officer (APO).

GAO’s Standards for Internal Control in the Federal Government state that “internal
control and all transactions and other significant events need to be clearly documented,
and the documentation should be readily available. The documentation should appear
in management directives, administrative policies, or operating manuals and may be in
paper or electronic format. All documentation and records should be properly managed
and maintained.”

The CATARS Users Guide states, “On a monthly basis, for each IAC, reconciliations
should be performed between the CATARS and DOLAR$ systems.                   These
reconciliations should first focus on whether the ending balances for property and
accumulated depreciation agree between the CATARS and DOLAR$ systems.”

DLMS Chapter 731, Policy – Management of Capitalized Assets states, “FY 2002 and
Subsequent Years until Revised by Management. Depreciable personal property items
which cost $50,000 or more (including WCF items) and have a useful life of two (2) or
more years will be recorded in CATARS and treated as assets, not expenses.”

Regarding recognition, measurement, and disclosure, SFFAS No. 10 states, “Entities
should capitalize the cost of software when such software meets the criteria for general
property, plant, and equipment (PP&E). General PP&E is any property, plant, and
equipment used in providing goods and services.”

SFFAS No. 10 further states, “Cost is the monetary value of resources used or liabilities
incurred to achieve an objective. Cost may be charged to operations immediately or, in
cases where the cost relates to goods or services that will benefit future periods, to an
asset account for recognition as an expense of subsequent periods.”

In addition, we tested a DOL-wide statistical sample of 200 assets to verify the assets
existed and were in usable condition. For 40 of the 200 items, DOL could not provide
Prepared by KPMG LLP                                                                         27
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


timely and adequate evidence of the asset’s existence and use. For 5 of the 200 items,
the evidence provided indicated the asset had been transferred or disposed of, and for
9 of the 200 items, the evidence provided indicated the asset was no longer in usable
condition. These 54 errors noted represented assets with a total cost of $21,315,130
and accumulated depreciation of $14,832,034. When projected to the entire population
of assets, the projected 1misstatement is $81,527,396 of cost and $66,594,051 of
accumulated depreciation. These errors were partially caused by DOL’s inability to
readily identify an asset based on the inventory number, serial number, or description in
CATARS. We noted that the inventory numbers and serial numbers on the assets were
not consistently recorded in CATARS. In addition, some errors resulted from the
inventory certification process not adequately identifying assets that no longer exist or
that were no longer in usable condition. DOL management considered the identified
differences to be immaterial to the FY 2006 consolidated financial statements, and as
such, these differences were included in the Summary of Unadjusted Audit Differences
attached to management’s FY 2006 representation letter.

Recommendations

We recommend the Chief Financial Officer:

1. Develop policies and procedures to resolve all abnormal balances in CATARS
   (e.g., items below the capitalization threshold and negative additions on the
   PP&E rollforward), and implement them to perform such analysis periodically
   throughout the year.

2. Develop and implement procedures to perform reconciliations between
   CATARS and the general ledger on a timely basis.

3. Develop and implement procedures to ensure that CAMOs are recording
   assets with the proper inventory number and proper serial number in
   CATARS.

4. Develop and implement procedures to ensure that CAMOs maintain records of
   assets such that each asset and related documentation can be readily
   identified and located.

5. Instruct CAMOs and APOs during their physical inventory to identify assets
   that are no longer in usable condition and to properly dispose of the assets in
   CATARS.

6. Either update the CATARS user guide to require that the PP&E reconciliation
   between the DOLAR$ and CATARS system be performed on a quarterly basis
   or ensure that the agency CAMOs are following the procedures outline
   currently in the CATARS user guide.

1
 This statistical projection utilized a confidence level of 96% and precision of 3%.
28                                                                                  Prepared by KPMG LLP
                                            for the U.S. Department of Labor—Office of Inspector General
                                                                         Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements



7. Implement an internal control that is designed to have a manager or
   supervisor review the PPE reconciliation between the DOLAR$ and CATARS
   systems performed by the agency CAMO. The manager or supervisor’s review
   should consist of the following: (1) determining whether the reconciliation was
   perform correctly (i.e., verifying that the PP&E balances reported on the
   reconciliation match the PP&E balances reported in the two systems); (2)
   ensuring that differences are adequately research and resolved (i.e.,
   explanations and supporting documentation); (3) verifying that the
   reconciliation was performed in a timely manner; and (4) documenting that the
   manager or supervisor reviewed the PP&E reconciliation (i.e., stamp, tick
   marks, date, and signature).

8. Identify and train backup personnel for key positions such as the CAMO.

9. Meet with each agency to gain understanding of the agency process for
   capitalizing internal-use software. If any discrepancies are noted that deviate
   from the appropriate accounting literature, implement internal controls to
   ensure only the appropriate costs are being capitalized. In addition, for any
   costs that may conflict with SFFAS No. 10, document the agency’s
   methodology.

10. Implement controls to ensure the APO completes the DL 1-55C in order that
    disposals can be recorded into CATARS in a timely manner.

11. Implement controls to ensure each agency APO performs an annual physical
    inventory in accordance with DOL policies.

12. Develop and implement policies and procedures to ensure DOL contractors
    adhere to policies and procedures in regards to the authorization of disposals
    relating to PP&E items.

13. Ensure that all agencies adhere to policies and procedures in regards to the
    authorization of disposals relating to PP&E items. OCFO management should
    revisit with each agency CAMO and APO and ensure that they are aware of the
    capitalization threshold outline currently in the DLMS Chapter 731.

14. Require the following: (1) each agency’s APO or accountant forward a copy of
    the invoice to the CAMO for any property items to be capitalized; (2) the CAMO
    review not only the DL 1-55C but also the invoice before moving items out of
    the CATARS holding; and (3) the agency manager or supervisor implement
    review procedures to ensure that the CAMO is reviewing the DL 1-55C and
    invoices prior to removing assets from the CATARS holding file.

15. Develop a consistent method for tracking PP&E within CATARS and develop
    processes for obtaining necessary data from DOL contractors.
Prepared by KPMG LLP                                                                         29
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements



OCFO Management’s Response

“At the present time, staff is effectively carrying out the required reconciliation
procedures. The CAMO for each agency completed a quarterly reconciliation between
CATARS and DOLAR$. Staff completed a property, plant and equipment (PP&E)
reconciliation to the subsidiary and the financial statement that was approved by
management.

During FY 2006, the OCFO re-issued relevant guidance to the agencies and conducted
quarterly meetings with the agencies. Last July, the OCFO designated a senior
accountant to monitor capitalized assets. The staff provided guidance to the agency
CAMO’s, conducted a year-end meeting to monitor compliance, and completed
reconciliations for June 2006 and September 2006 between CATARS and DOLAR$.
This individual is responsible for monitoring PP&E, including internal-use software,
reviewing the CATARS for abnormal balances, and ensuring that agencies are
capitalizing costs for projects identified by the agency management as internal-use
software.

OCFO will strengthen procedures to ensure that CAMOs are recording assets with the
proper inventory number and proper serial number in CATARS. Recommendation # 3
will be completed by January 31, 2007.

OCFO will strengthen procedures to ensure that CAMOs maintain records of assets
such that each asset can be readily identified and located. Recommendation # 4 will be
completed by January 31, 2007.

OCFO will instruct CAMOs and Accountable Property Officers during their physical
inventory to identify assets that are no longer in usable condition and to properly
dispose of the assets in CATARS. Recommendation # 5 will be completed by January
31, 2007.”

Auditors’ Conclusion

Recommendation nos.1 through 5 are considered resolved and open. FY 2007 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

Recommendation nos.6 through 15 are considered unresolved pending completion of
corrective action plans with specified timeframes for implementation.




30                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements



Finding 4 – Weaknesses Noted over Grants

Grant Accrual Preparation and Validation

The ETA grant accrual process for the fiscal year-end and quarter-end accruals takes a
snapshot of general ledger data for all ETA grants at the end of the period and
calculates, at the individual grant level, the probable costs incurred based on the
amount of drawdowns recorded at the end of the period. For the fiscal year-end
September 30, 2006, the ETA grant accrual was approximately $569 million. An
accuracy analysis is performed on an annual basis to compare the actual costs reported
by the grantees to the previous year-end’s accrual. During our FY 2006 audit work, we
identified the following segregation of duties and other issues related to the ETA grant
accrual and validation process:


•   No independent, comprehensive management review of the quarterly grant accrual
    calculation performed by the Financial Systems Specialist was completed.
•   No other employees were trained to calculate the quarterly grant accrual using the
    current accrual methodology in the event that the Financial Systems Specialist is
    absent. Further, the database used by the Financial Systems Specialist to calculate
    the grant accrual was housed only on the Specialist’s machine, and no other
    employees had access to or were trained to utilize the database.
•   Unless a change was made in the factors or methodology of the grant accrual as a
    result of the annual accuracy analysis, no other individuals performed a detailed
    review of the annual accuracy analysis.
•   No official detailed procedures manual (e.g., DLMS or the ETA National Accounting
    Policies and Procedures Manual) documents (1) how to calculate the ETA grant
    accrual, including the utilization of the respective database, and (2) how to calculate
    the annual accuracy analysis of ETA’s grant accrual, including the utilization of the
    respective database.

Per GAO’s Standards for Internal Control in the Federal Government, “Key duties and
responsibilities need to be divided or segregated among different people to reduce the
risk of error or fraud. This should include separating the responsibilities for authorizing
transactions, processing and recording them, reviewing the transactions, and handling
any related assets. No one individual should control all key aspects of a transaction or
event.” Additionally, “The documentation should appear in management directives,
administrative policies, or operating manuals and may be in paper or electronic form.
All documentation and records should be properly managed and maintained.”

Without a proper management review of the quarterly grant accrual and annual
accuracy analysis, the risk increases that the grant accrual could be misstated in the
consolidated financial statements. Additionally, without another employee trained to
calculate the quarterly grant accrual using the current accrual methodology, a risk exists
Prepared by KPMG LLP                                                                         31
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


that the accrual would not be prepared timely and/or accurately in the event that the
Financial Systems Specialist is absent.

Recommendations

We recommend that the Chief Financial Officer and the Assistant Secretary for
Employment and Training ensure that additional employees are designated and
trained to:

1. Perform a detailed review of the quarterly grant accrual calculation prepared
   by the Financial Systems Specialist before submission to the OCFO for
   posting.

2. Act as alternate preparers in the absence of the Financial Systems Specialist
   responsible for calculating the grant accrual and the annual accuracy
   analysis.

3. Perform a detailed review of the results of the annual accuracy analysis
   prepared by the Financial Systems Specialist.

4. Develop and implement ETA grant accrual procedures to be included in the
   ETA National Accounting Policies and Procedures Manual.


ETA Management’s Response

“ETA concurs that backup procedures and personnel should be in place for calculating
the quarterly grant accrual and for performing the annual accuracy analysis. The
responsibility for calculating the quarterly accrual was transferred to the accounting
office effective for the FY 2006 year-end accrual. Two additional employees have been
trained on how to perform the accrual in addition to the financial systems specialist.
The financial systems specialist now performs the management review of the accruals.
Additional accounting office personnel will be trained to perform the accuracy analysis
during FY 2007, and ETA has engaged a contractor who has the expertise to perform
this analysis. Management believes that this finding is resolved, and should be closed
upon audit verification of the above.

Furthermore, the original procedure, which had been arrived at under an agreement
between ETA and OCFO several years ago, included separation of duties between the
origination of the entry by ETA and the recording of the entry, and review of its effect on
the general ledger, by OCFO. In fact, OCFO is still performing those duties of recording
the entry and reviewing its effect. While ETA concedes that ideally it should review its
entries internally, we believe that the original procedure was sufficient to detect and
correct any material misstatement in the financial statements and thus this finding does
not constitute a reportable condition and should be moved to the Management Advisory
Comments.”
32                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements



OCFO Management’s Response

No response was provided.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2007 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

Controls over Compliance with the Single Audit Act Amendments of 1996

DOL has no monitoring procedures in place to ensure that audits of its grantees are
completed and reports are received in a timely manner for each grantee that meets the
audit threshold in OMB Circular No. A-133, Audits of States, Local Governments, and
Non-Profit Organizations. Therefore, DOL cannot be certain that all required audits
have been performed in a timely manner.

In addition, for FY 2006 compliance testing purposes, we selected a sample of DOL
grantees that expended $500,000 or more of DOL funding through June 30, 2005. As
of September 30, 2006, the latest available OMB Circular No. A-133 audit reports for 5
of the 32 grantees selected were not obtained by DOL for review to determine if any
issues related to DOL grants had been reported. According to the Federal Single Audit
Clearinghouse website, these 5 audit reports had been completed between the dates of
May 7, 2002 and March 5, 2006 and were available on the website.

According to Section 7504 of the Single Audit Act Amendments of 1996, “Each Federal
agency shall, in accordance with guidance issued by the Director under section 7505,
with regard to Federal awards provided by the agency…monitor non-Federal entity use
of Federal awards.” According OMB Circular No. A-133, non-Federal entities that
expend $500,000 or more in a year in Federal awards shall have a single or program-
specific audit conducted for that year. In addition, OMB Circular No. A-133, Subpart D,
section 400(c) requires the Federal awarding agency to “perform the following for the
Federal awards it makes: “Ensure that audits are completed and reports are received in
a timely manner and in accordance with the requirements of this part…Issue a
management decision on audit findings within six months after receipt of the audit report
and ensure that the recipient takes appropriate and timely corrective action.”

DLMS 8 – Audits and Investigations, dated July 7, 2004, paragraph 503 states, “DOL
Program Official(s) shall promptly evaluate OIG report findings and recommendations
and determine appropriate action…The Office of Inspector General will directly receive
all Single Audit Act reports required to be submitted to DOL.”

If no procedures are in place to ensure all audit reports that are required to be
completed are received by DOL, DOL cannot determine if an audit report is missing or
Prepared by KPMG LLP                                                                         33
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


overdue. Additionally, DOL is not in full compliance with OMB Circular No. A-133, and
questioned costs may have been reported for DOL programs of which DOL is not
aware.

Recommendations

We recommend that the Chief Financial Officer:

1. Develop and implement a tracking system to identify each grantee for which
   an OMB Circular No. A-133 audit is required and the date that the audit report
   is due. DOL should update DLMS to specifically identify which agencies are
   responsible for populating and maintaining this tracking system and for
   following-up with grantees when audit reports become overdue. These efforts
   should be coordinated with the work the OIG currently performs related to
   receipt and review of the OMB Circular No. A-133 audit reports.

2. Implement a formal policy or process that defines which agency is responsible
   to monitor the Federal Single Audit Clearinghouse website for completed DOL
   grantee audit reports and retrieve them from the website for subsequent
   review.

OCFO Management’s Response

“OCFO will coordinate with appropriate agencies to develop and implement a tracking
system to identify each grantee for which an OMB Circular No. A-133 audit is required.
OCFO will also update DLMS to specifically identify the agencies that are responsible
for populating and maintaining this tracking system and for following-up with grantees.
These efforts will be coordinated with the OIG and will be completed by March 31, 2007.

OCFO will ensure that the agencies implement DLMS policy and procedures to monitor
the Federal Single Audit Clearinghouse website and retrieve them for their review. This
will be completed by March 31, 2007.”


Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2007 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.


Finding 5 – Weaknesses Noted in the Change Control Process for a Benefits System

A documented and standard process for requesting, reviewing, developing, testing, and
approving changes to an ESA benefits system was not in place prior to February 2006.
While change control procedures were established and documented in February 2006,
34                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


the procedures were inconsistently followed during the months of February and March
2006.

From a total of 38 changes made during the period of February 2, 2006, to March 31,
2006, we selected a judgmental sample of 30 changes and noted the following:

           Number of Occurrences                    Weakness Identified
                    29                     Missing subject matter expert approval
                    28                     Missing change control board approval
                                           Missing indication that change has
                         6
                                           been released
                         4                 Missing integration testing
                                           Missing independent verification and
                         1
                                           validation testing

Additionally, procedures have not been established for priority and emergency changes
or changes to the system test environment.

Management stated that the system was recently implemented and management had
not finalized change control procedures and was informally processing change control
requests and approvals. Additionally, since procedures were implemented in February
2006, management has not had sufficient time or resources to ensure that the policy is
being consistently followed. Furthermore, management believed that the procedures
were sufficient to cover priority and emergency changes at the time the procedures
were implemented.

The DOL Computer Security Handbook, Volume 6, System Security Planning for Major
Applications”, section 4.6, page 37, states that controls must be used to “monitor the
installation of, and updates to, hardware, operating system software, and other software
to ensure that the hardware and software function as expected, and that a historical
record is maintained of application changes.” Additionally, the guidance states:

       These controls may also be used to ensure that only authorized software
       is installed on the system. Such controls may include a hardware and
       software configuration policy that grants managerial approval (re-authorize
       processing) to modifications and requires that changes be documented.

The National Institute of Standards and Technology (NIST) Special Publication (SP)
800-64, Security Considerations in the Information System Development Life Cycle,
section 2.3.4.1, page 23, states:

       Configuration management and configuration control procedures are
       critical to establishing an initial baseline of hardware, software, and
       firmware components for the information system and subsequently


Prepared by KPMG LLP                                                                         35
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


       controlling and maintaining an accurate inventory of any changes to the
       system.

Without a proper change control process regarding the flow of changes from
development to production, unauthorized and potentially inaccurate program changes
may be implemented into the production environment. Without formal acceptance of
application changes, program management cannot be assured that the changes made
meet their needs and are appropriate for the environment. In addition, as a result of
these weaknesses, DOL is not in full compliance with FISMA.

As a result of our findings, management researched the 30 changes and determined the
changes were appropriately performed.

Recommendations

We recommend the Chief Financial Officer and the Chief Information Officer:

1. Coordinate efforts with the ESA to develop and/or enforce procedures and
   controls to address change control weaknesses.

OASAM, OCFO and ESA Managements’ Response
“Management does not agree with the statement that a documented and standard
process for requesting, reviewing, developing, testing, and approving changes to ESA’s
Integrated Federal Employees’ Compensation System (iFECS) was not in place prior to
February 2006. All changes to the test and production iFECS system have always
followed ESA’s change control processes/procedures as evidenced by over three
hundred approved Change Control Requests for iFECS over the past 21 months.

In February 2006, ESA implemented the iFECS-specific change control system tracking
tool as stated in the audit report. The auditors tested transactions in February and
March, basically at the time the new procedures were implemented, and identified
weaknesses primarily addressing missing approvals. For the instances noted by the
auditors, ESA has already updated documentation of approved, tested, and installed
system changes and also performed subsequent internal audits to ensure that the
issues noted by the auditors were not continuing. Regarding the specific procedures for
priority and emergency changes or changes to the iFECS test environment, starting in
July 2006, these change procedures were consolidated and incorporated into the iFECS
change control system tracking tool. Prior to July, these change procedures/approvals
were documented generally through emails and other memoranda.

Management will verify that specific security weaknesses identified during the audit are
included in the agency POA&M by December 31, 2006. Management believes
appropriate corrective action has already been implemented as described above and in
our exit conference.”

36                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


“Update to Management Response as of February 22, 2007:

ESA/OWCP/Division of Federal Employees Compensation (DFEC) have updated the
iFECS POA&M to include the identified weakness. Additionally, ESA has documented
and implemented a standard process for requesting, reviewing, developing, testing and
approving changes to iFECS. The updated procedures are available for review by OIG.

Management considers this finding resolved and ready to be closed pending OIG
concurrence. We appreciate the OIG’s recommendations as they help focus our efforts
to further strengthen the security of DOL systems. We are confident that the activities
listed above have adequately addressed your recommendations.”

OCIO Management’s Response
No response was provided.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2007 audit
procedures will determine whether these recommendations have been adequately
addressed and can be closed.


Finding 6 – Weaknesses Noted in Federal Employees Compensation Act (FECA)
Accounting and Financial Reporting

DOL did not implement or consistently follow its existing management review
procedures related to year-end activity reconciliations and continuing FECA eligibility.

FECA Reconciliations
The OCFO does not adequately reconcile (1) the general ledger to the FECA subsidiary
ledgers (FECA history databases), and ESA does not adequately reconcile (2) the
FECA history databases to the charge-back report that is derived from the history
databases and used to bill FECA customer agencies. We noted a reconciling difference
of roughly $76 million in (1) above and a difference of $17 million in (2) above. Although
DOL management has management review controls in place, they do not sufficiently
follow-up and resolve differences through an adequate reconciliation process.

Per the GAO’s Standards for Internal Control in the Federal Government, “Control
activities occur at all levels and functions of the entity. They include a wide range of
diverse activities such as approvals, authorizations, verifications, reconciliations,
performance reviews, maintenance of security, and the creation and maintenance of
related records which provide evidence of execution of these activities as well as
appropriate documentation.”


Prepared by KPMG LLP                                                                         37
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


Recommendations

We recommend the Chief Financial Officer and the Assistant Secretary for
Employment Standards:

1. Develop and implement quarterly procedures to reconcile the FECA benefit
   program expenses to the general ledger.

2. Develop and implement quarterly ESA procedures to adequately reconcile the
   FECA history databases to the charge-back reports.

OCFO Management’s Response

“The OCFO notes the general ledger to the FECA history databases reconciliation is a
two step process. The first step is a reconciliation between the FECA SF-224 forms
and the general ledger. The OCFO is responsible for this reconciliation. The second
step is a reconciliation between the FECA SF-224 forms and the FECA history
databases. The OCFO notes that ESA is responsible for this reconciliation. The OCFO
will assist ESA, as necessary, with the FECA SF-224 forms to the FECA history
databases reconciliation.”

ESA Management’s Response

“OWCP’s Management will develop and implement reconciliation procedures to ensure
that there is no material difference between chargeback reports and the payment
histories. The procedures will be completed by June 15, 2007, in preparation for the
reconciliation after the close of the chargeback year (June 30). The reconciliation will
be completed August 5th, ten days prior to the issuance of the chargeback bills.”


Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2007 audit
procedures will determine whether these recommendations have been adequately
addressed and can be closed.

Management Review of Year-end Accrual

DOL prepares a schedule, Liability for Current Federal Employees Compensation Act
Benefits, as of September 30, which is available to other Federal agencies before fiscal
year end via the internet. This information is necessary for other Federal agencies to
record a liability for fourth quarter benefit payments, which is owed to DOL. The DOL
OCFO uses an estimation process to prepare this schedule.


38                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Management does not have procedures in place to review the estimate for the fourth
quarter. The estimate for the FY 2006 fourth quarter DOL receivable based on the
Liability for Current Federal Employees Compensation Act Benefits schedule differed
from the actual DOL receivable by approximately $96 million. This variance primarily
resulted from an extra payment cycle in the fourth quarter of FY 2006 for which the
estimation model did not account. Had management performed a detailed review of the
OCFO estimate, management may have identified that the extra payment cycle was not
accounted for in the fourth quarter estimate and requested a correction prior to the
posting of the estimate information on the internet.

Per the GAO’s Standards for Internal Control in the Federal Government, “Key duties
and responsibilities need to be divided or segregated among different people to reduce
the risk of error or fraud. This should include separating the responsibilities for
authorizing transactions, processing and recording them, reviewing the transactions,
and handling any related assets. No one individual should control all key aspects of a
transaction or event.”


Recommendations

We recommend the Chief Financial Officer and the Assistant Secretary for
Employment Standards:

1. Develop and implement procedures for management review of the OCFO
   estimates prior to posting of the estimates on the internet.

2. Refine the estimation methodology so that it will more accurately account for
   varying payment cycles.


OCFO Management’s Response

“Due to the accelerated U.S. Department of Treasury’s FMS requirement to report
fiduciary activities, the estimates are used to calculate FECA liabilities for Federal
agencies. The OFCO has to report these numbers by the 5th day of the following month
after quarter-end. Due to the accelerated timeline, the OCFO does not have the actual
figures when the process to calculate these liabilities starts. The OCFO estimates
agency charge backs based on the previous quarter. In most of the quarters, with rare
exception, the estimates are very close to actual charge backs for the quarter. The
OCFO estimated the 4th quarter charge back to be $610 million instead of $706 million.
The difference is considered to be immaterial to the participant Federal agencies. The
OCFO adjusted the estimated charge back at the auditor’s request. Management will
develop and implement procedures to formally review the amounts to be posted and will
review and refine the methodology.”

Prepared by KPMG LLP                                                                         39
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


ESA Management’s Response

No response was provided.

Auditors’ Conclusion

These recommendations are considered unresolved pending completion of corrective
action plans with specified timeframes for implementation.

Delinquent Forms CA-1032, Request for Information on Earnings, Dual Benefits,
Dependents and Third Party Settlement Form

DOL policy requires FECA claimants to annually certify their earnings information and
dependent status on a Request for Information on Earnings, Dual Benefits, Dependents
and Third Party Settlements Form (CA-1032). This information is used to determine if
any changes are necessary to a claimant’s benefit amount.

Our tests of operating effectiveness noted that Claims Examiners (CE) were not
consistently following-up with claimants to ensure that a CA-1032 was received annually
for each claimant, as applicable; however, payments continued to be made to non-
responsive claimants. ESA management identified the use of the Periodic Eligibility
Review (PER) screen capabilities in iFECS as a key control to ensure claimant case
files are current. The iFECS PER screen tracks CA-1032 status and documents CA-
1032 receipt and review. However, iFECS does not have automated reminders to
identify outstanding CA-1032 receipts. For 4 of the 188 disbursements tested, we noted
a completed CA-1032 was not returned by the claimant and the CE did not follow the
FECA Procedure Manual in following up on the unreturned CA-1032. Without these
completed forms, an increased opportunity exists for incorrect payments to be made to
claimants in situations where they are either no longer eligible for compensation or are
eligible for increased or reduced compensation, based on their earnings, marital status,
and/or dependent status, and have not had their information updated in iFECS.

We also noted that 2 of the 188 disbursements tested were made for inaccurate
amounts because of inadequate CE reviews of received CA-1032s. The two claimants
had provided sufficient information on the CA-1032, noting that they no longer had a
spouse or dependents; however, the payments tested identified that they continued to
be paid at the higher rate that would apply for a claimant with dependents and/or a
spouse.

System controls and reminders should be in place to monitor the status of CA-1032
requests. Once CEs begin to use the PER screen consistently, a report could be
written that would provide a list of those claimants for which CA-1032s have not been
received, which would facilitate more timely follow-up by the CEs and supervisory staff.



40                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


We have noted that management has taken action on these issues. Specifically,
management has made enhancements to the PER screen within iFECS and is updating
its policies to make the appropriate use of the PER screen a mandatory requirement.

Recommendations

We recommend the Chief Financial Officer and the Assistant Secretary for
Employment Standards coordinate efforts to ensure CEs:

1. Utilize the PER screen within iFECS to track CA-1032 status and document
   their receipt and review using a system configuration or manual control.

2. Require supervisory review of CE receipt and review of CA-1032 forms.

ESA Management’s Response

“It is management’s position that with the successful implementation of the
enhancements to the Periodic Eligibility Review (PER) screen within iFECS on March
31, 2006, in fulfillment of the response to a prior year finding, the issue was resolved.
The PER screen and its functionality were created to keep track of CA-1032 status and
to document CE receipt and review of the form utilizing automated prompts to remind
the CE to take action. The PER also enables supervisors and managers to monitor
performance of individuals and units. It is Management’s position that use of the PER
resolves the findings related to processing CA-1032s.

The ESA Chief of Policy and Procedures has been tasked with creating a bulletin to
outline our policy on the use of the PER screen. The procedure manual will be updated,
as it still references claims examiners needing to complete a form 674. The expected
completion date is December 31, 2006.”

OCFO Management’s Response

No response was provided.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2007 audit
procedures will determine whether these recommendations have been adequately
addressed and can be closed.

Finding 7 – Lack of Segregation of Duties over Journal Entries

All DOL agencies are able to enter journal entries into DOLAR$ via transaction codes.
Each transaction code consists of one or more journal entries. The respective agency
staff member responsible for recording the particular item accesses DOLAR$ and
Prepared by KPMG LLP                                                                         41
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


enters the transaction code and the dollar amount of the item. DOLAR$ does not
require these entries to be recorded and approved by separate individuals before they
are posted to the general ledger. Hence, transaction codes and corresponding amounts
entered into DOLAR$ are posted without any system-controlled review and approval.
Of 93 entries tested, 42 journal entries did not have appropriate segregation of duties.
We noted this condition through procedures performed at the Occupational Safety and
Health Administration (OSHA), OASAM, and the OCFO; these agencies do not have
manual compensating review controls to address the related risk.

DOLAR$ was not designed to require journal entries to be electronically approved
before amounts entered are posted to the general ledger, and management has not
required Department-wide manual review controls to compensate for this condition. By
allowing individuals the authority to prepare and approve their own transactions in
DOLAR$, the risk increases that a material error would not be prevented or detected
and corrected on a timely basis.

Per the GAO’s Standards for Internal Control in the Federal Government, “Key duties
and responsibilities need to be divided or segregated among different people to reduce
the risk of error or fraud. This should include separating the responsibilities for
authorizing transactions, processing and recording them, reviewing the transactions,
and handling any related assets. No one individual should control all key aspects of a
transaction or event.”

Recommendations

1. We recommend that the Chief Financial Officer ensures that the current
   general ledger system is modified so that journal entries (via transaction
   codes) entered into the general ledger are required to be approved
   electronically by an individual other than the preparer before they are posted.
   The agencies that do not currently have manual compensating review controls
   should implement such controls to address this risk until the system controls
   have been implemented.

2. We recommend that the Chief Financial Officer ensures that this electronic
   approval feature is also incorporated into the design of the planned
   replacement general ledger system.

OASAM Management’s Response

“The Office of the Assistant Secretary for Administration and Management (OASAM)
supports the concept of building in automated internal controls into the system that will
replace DOLAR$ as long as these controls are reasonable. However, OASAM
disagrees with the finding that there are no compensating review controls for the current
lack of automated journal voucher review, especially in regards to the postings OASAM
performs for the Employee Benefits Security Administration (EBSA) civil monetary
penalties (CMP) program. EBSA is the source of all CMP-related transactions posted
42                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


by OASAM. All transaction documents submitted to OASAM by EBSA are prepared,
reviewed and reconciled by EBSA prior to release for posting. Additionally, OASAM
and EBSA perform a monthly reconciliation of transmitted DOLAR$ transactions for the
CMP program. OCFO also performs a quarterly reconciliation of DOLAR$ data posted
by OASAM and the Treasury Report on Receivables (TROR), which is prepared and
transmitted to Treasury by EBSA.

For non-EBSA CMP transactions, there are compensating controls for OASAM postings
through the monthly review of the Detail Fund Report by budget and program staff.
Standard OASAM procedure is for the budget analysts to review these reports on a
monthly basis and meet with the program agencies to look for erroneous postings. Any
errors are brought to the attention of the accountant that posted the transaction and
corrections are made.

In summary, the Department has established compensating controls and no single
individual controls all aspects of these transactions.”


OSHA Management’s Response

“This draft finding was raised concerning OSHA’s penalty collection and receivables
processes. Key duties and responsibilities continue to be segregated among different
people and organizations within OSHA, as well as banking institutions, and the
Department of Treasury. National Office staff have no access to underlying assets,
either cash or receivables. They are also not involved in the IMIS receivables
calculation process.

There is a clear separation between the collection of assets and recording of
transactions. Monetary assets are sent to OSHA Area Offices, where penalties are
collected and mailed to the lockbox bank. This dollar figure and related individual
deposit slip information is transmitted to OSHA’s IMIS (Integrated Management
Information System) for posting against the individual inspection related receivables.
These funds are collected from the lockbox banks by the Department of Treasury, and
the deposits are posted in their GOALS II (Government On-Line Accounting Link
System). The daily entry posted by Financial staff into DOLAR$ is identical to the
lockbox bank figure received from the bank. It is not a journal voucher in the sense that
independent calculations and analysis are not required. A reconciliation is performed
by a senior individual in OSHA’s Financial staff to ensure that Treasury and DOLAR$
data match. This reconciliation is monitored by both OCFO and Treasury. An
additional reconciliation is also performed by an OSHA accountant to ensure that
Treasury, DOL, and OSHA information are in agreement on a transaction-by-
transaction and day-to-day basis.”




Prepared by KPMG LLP                                                                         43
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


OCFO Management’s Response

“The OCFO management disagrees with the finding that there are no reviews of journal
vouchers before they are posted into DOLAR$. Management and/or senior staff
routinely discuss and review transactions prior to input into the core financial system.
We support the concept of building in an electronic review and approval process into the
system that will replace DOLAR$ and will work to implement it to the extent appropriate.
However, we do not believe that it is feasible or cost justified implementing these types
of controls in the current system.

OCFO recently implemented additional procedures to ensure that all transactions are
approved, any errors are detected and resolved promptly, and that an audit trail exists.
OCFO will work with agencies to implement these procedures. The target date of
completion to help agencies carry out this policy is March 2007.”

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2007 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.


Finding 8 – Weaknesses Noted over Payroll Accounting

During FY 2006, the U.S. Department of Agriculture’s (USDA) Office of Chief Financial
Officer (OCFO)/National Finance Center (NFC) processed DOL’s payroll. The Fiscal
Year 2006 – Office of the Chief Financial Officer/National Finance Center General
Control Review dated September 21, 2006 and issued by the USDA’s Office of
Inspector General (Report No. 11401-24-FM) reported a qualified opinion regarding the
effectiveness of NFC’s internal controls for the period October 1, 2005 through June 30,
2006. During FY 2006, DOL did not have policies and procedures in place to reconcile
the payroll information it submitted to the NFC to that received and processed by the
NFC.

For each FY 2006 pay period, DOL submitted to the NFC payroll information that
included all DOL employees for the period, along with their hours worked, leave used,
and other payroll related information for the period. The NFC processed the payroll for
DOL each period and made available for download a Detail Pay and Deduct Register
report for each DOL Human Resources office. We noted that DOL did not utilize these
reports to perform reviews or reconciliations of data processed by the NFC, and no
other controls were in place during the year to ensure that what was submitted to NFC
via Time and Attendance records reconciled to what was shown as paid in the Detail
Pay and Deduct Register. The lack of reconciliation controls around the NFC outputs,
compounded by the control weaknesses identified at the NFC, increased the risk that


44                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


payroll-related line items in the FY 2006 financial statements could be misstated
because of errors in payroll processing by the NFC.

Additionally, we noted that DLMS 6, Financial Management, Chapter 1000, Payroll
Accounting, has not been updated since October 1981. However, payroll policies and
procedures have changed since 1981, most notably with the change to NFC as DOL’s
payroll services provider.

Federal agencies that use external service providers, such as the NFC, should have
controls in place to ensure the accuracy of processing outputs. As stated by the USDA
OIG in its FY 2006 Report No. 11401-24-FM, “The accuracy and reliability of data
processed by OCFO/NFC and the resultant reports rests with the customer agency and
any compensating controls implemented by the agencies.”

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states,
“Application control should be designed to ensure that transactions are properly
authorized and processed accurately and that the data is valid and complete. Controls
should be established at an application’s interfaces to verify inputs and outputs, such as
edit checks.” Additionally, per the GAO’s Standards for Internal Control in the Federal
Government, “Internal control should generally be designed to assure that ongoing
monitoring occurs in the course of normal operations. It is performed continually and is
ingrained in the agency’s operations. It includes regular management and supervisory
activities, comparisons, reconciliations, and other actions people take in performing their
duties.” GAO’s Standards for Internal Control in the Federal Government also state,
“The documentation should appear in management directives, administrative policies, or
operating manuals and may be in paper or electronic form. All documentation and
records should be properly managed and maintained.”


Recommendations

We recommend that the Chief Financial Officer:

1. Develop and implement policies and procedures to reconcile payroll
   information provided to the NFC to the payroll information processed by the
   NFC each pay period. These reconciliations should be documented, reviewed
   and approved by an appropriate supervisor, and maintained.

2. Update DLMS to reflect current payroll-related policies and procedures, and
   develop and implement a monitoring plan to periodically evaluate and update
   procedures in the DLMS to ensure the information documented is still
   appropriate.




Prepared by KPMG LLP                                                                         45
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


OCFO Management’s Response

“Prior to migrating to the National Finance Center, DOL did payroll comparisons
between the People Power payroll and the National Finance Center payroll
computations. Any discrepancies between the two systems were explained by the
differences in tax computations.

Each pay period DOL produces a Pay and Deduct detail report for each DOL employee.
These reports are available primarily for the budget offices to validate pay and benefit
information. We also have in place a time and attendance reconciliation that validates
what is transmitted to NFC and what is processed. We are also reviewing and
reconciling data between DOL Human Resources (HR) and HR data in the National
Finance Center’s data base. There are numerous people power edits to ensure that
data are meeting OPM regulations. There are several People Power quality control
reports being produced as well as thousands of NFC front end edits to ensure accuracy.
Additionally, the OCFO validates what is being provided to NFC is what is being
charged to DOL.”

Auditors’ Conclusion

These recommendations are considered unresolved pending completion of a
corrective action plan with specified timeframes for implementation.

Finding 9 – Weaknesses Noted over Budgetary Accounting

During FY 2006, the OCFO did not complete timely reconciliations related to the
Apportionment and Reapportionment Schedules (SF-132) and the Report on Budget
Execution and Budgetary Resources (SF-133). During our FY 2006 audit work, we
requested reconciliations as of June 30, 2006 of (a) the SF-132 to the SF-133, and (b)
the SF-133 to the third quarter Statement of Budgetary Resources (SBR). However,
these reconciliations were not provided to us until late September 2006. In addition,
these reconciliations identified several necessary corrections to amounts posted in the
general ledger, and various differences remained unresolved. For the SF-132 to the
SF-133 reconciliations, of the 30 reconciliations that were completed, 15 had variances
requiring explanation and/or adjustment when the SF132s were compared to the
SF133s. For the SF-133 to the SBR reconciliation, the third quarter reconciliation was
not prepared until September and reconciling items identified during the reconciliation
were not resolved timely or at all. In addition, as of November 3, 2006, the fourth
quarter reconciliation was not provided to us.

During FY 2006, the OCFO did not have adequate resources and did not adequately
enforce policies to ensure the reconciliations were completed and any identified
reconciling items resolved in a timely manner. The lack of timely and complete
reconciliations increased the risk that material differences in external reports and in the


46                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                      Findings and Recommendations Identified in an
                                                       Audit of the Consolidated Financial Statements


general ledger may not have been detected and corrected in a timely manner during the
year.

Additionally, we noted that much of the information referenced in DLMS for the Budget
Execution process has not been updated since March 2004. OMB Circular A-11,
Preparation, Submission and Execution of the Budget, has been revised since that time.

Per the GAO’s Standards for Internal Control in the Federal Government, “Control
activities occur at all levels and functions of the entity. They include a wide range of
diverse activities such as approvals, authorizations, verifications, reconciliations,
performance reviews, maintenance of security, and the creation and maintenance of
related records which provide evidence of execution of these activities as well as
appropriate documentation.” Additionally, “The documentation should appear in
management directives, administrative policies, or operating manuals and may be in
paper or electronic form. All documentation and records should be properly managed
and maintained.” These controls should be performed as it relates to the SF-132 and
the SF-133.

According to OMB’s Circular A-136 (July 2006), section II.4.6.12, “… information on the
SBR should be consistent with and reconciled to the budget execution information
reported on the Report on Budget Execution and Budgetary Resources (SF 133) and
with information reported in the Budget of the United States Government to ensure the
integrity of the numbers presented…Consistency between budgetary information
presented in the financial statements and the Budget of the United States Government
is critical to ensure the integrity of the numbers presented. The FACTS II helps to
ensure the consistency of data. The FACTS II data submitted by agencies are USSGL-
based trial balances, which are used to populate the SF 133 and the actual column of
the Program and Financing Schedule of the Budget.” In addition, section II.4.63 states
“The resources reported on this statement shall agree with, and be reconciled to, the
total budgetary resources reported for the aggregate of all budget accounts on the SF
133…The status of budgetary resources reported on this statement shall agree with,
and be reconciled to, the total status reported for the aggregate of all budget accounts
on the SF 133…The outlays shall also agree with, and be reconciled to, the aggregate
of outlays reported on the SF 133 for the aggregate of all budget accounts.”

Recommendations

We recommend that the Chief Financial Officer:

1. Ensure that current policies and procedures over SF-132 and SF-133
   reconciliations are enhanced to require (a) quarterly reconciliations be
   prepared and documented, (b) the completion of documented supervisory


2
 Also cited in the August 2005 version of OMB Circular No. A-136, section 6.1.
3
 Also cited in the August 2005 version of OMB Circular No. A-136, sections 6.5 through 6.7.
Prepared by KPMG LLP                                                                              47
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


     reviews over the reconciliations, and (c) the completion of                        these
     reconciliations by a certain date (e.g., 15 days after each quarter-end).

2. Update DLMS to reflect current budget-related policies, procedures, and
   external requirements, and develop and implement a monitoring plan to
   periodically evaluate and update procedures in the DLMS to ensure the
   information documented is still appropriate.

OCFO Management’s Response

“The OCFO is responsible for the department’s core accounting system, DOLAR$. The
SF-132 data, after it is approved by OMB, is entered into DOLAR$ by the Office of
Budget (OB). At the end of each quarter the OCFO prepares the SF-133 reports from
the accounting system and submits them to DOL agencies to be reviewed and later
submits them to Treasury and OMB.

The OCFO is confident that the “pre-submission validation check” report performed at
the system level alerts us of any budgetary deficiencies before the trial balance data is
submitted through the edit checks of Treasury. The submission process to Treasury is
a filtration process that rejects any disparity at a budgetary or outlay level, and the area
is identified immediately. As a result, there are multiple checks and balances before the
DOL budget data reaches the Treasury FACTS II.

Additionally, the OCFO reconciled the SF-132 and SF-133 on a quarterly basis. The
OCFO provided auditors with the June 30 reconciliation; the September 30
reconciliation has been completed and is under the management review process.
However, OCFO is working to enhance our current policies and procedures. Policies
and procedures will be enhanced to require that the quarterly reconciliation be
completed by 15 days after each quarter, will require that the reconciliation be fully
documented, and will require the quarterly reconciliation to be reviewed and approved
by management. This will be completed by March 2007.

As an enhancement to the existing policies and procedures, the OCFO will assign
Treasury Appropriation Fund Symbols - TAFS’s to staff within the organization. The
staff members will be responsible for the review of data contained in the general ledger
to documents obtained from the OB on Apportionment and Reapportionment schedule
(SF-132) activity and provide a status report where adverse conditions exist. The
OCFO will also meet with identified OB staff, who access and post transactions into
DOLAR$ in the months prior to the quarter month to discuss area’s identified by the
OCFO staff during the review process as potential errors or discuss SGL trend changes
needed to the budgetary accounts.

The OCFO will work with the managers in the OB to ensure that proper documentation
is developed to assure that supervisory review is in place for transactions posted in the
general ledger related to budgetary activity.”
48                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements



Auditors’ Conclusion

The first recommendation is considered resolved and open. FY 2007 audit procedures
will determine whether this recommendation has been adequately addressed and can
be closed.

As the OCFO did not address the second recommendation in its response, the second
recommendation is considered unresolved pending completion of a corrective action
plan with specified timeframes for implementation.

Finding 10. Weaknesses Noted over Custodial Activities

Four DOL agencies are responsible for the assessment and collection of fines and
penalties – ESA, OSHA, the Employee Benefits Security Administration (EBSA), and
the Mine Safety and Health Administration (MSHA). During our FY 2006 testing related
to the assessment and collection of fines and penalties, we noted the following
conditions:

•   Controls were not consistently functioning effectively during FY 2006 to notify the
    employers of debt delinquency timely (18 exceptions in 74 cases tested) or to send
    notification of outstanding debt to the U.S. Department of the Treasury (Treasury)
    after 180 days (25 exceptions in 52 cases tested that were greater than 180 days
    outstanding), in accordance with the Debt Collection Improvement Act of 1996.
    These exceptions were noted at MSHA and OSHA.
•   MSHA and ESA do not write-off debt greater than 2 years old in accordance with
    OMB Circular No. A-129, Managing Federal Credit Programs.
•   MSHA does not reconcile its subsidiary ledger to the general ledger on a periodic
    basis. We requested reconciliations of collections between the subsidiary ledger and
    the general ledger as of June 30, August 31, and September 30, 2006, and received
    none of them timely. The September 30 collections reconciliation, received on
    November 3, 2006, contained a $650,930 unexplained variance (2.7% of MSHA
    collections recorded in the general ledger as of September 30, 2006).
•   Since November 2005, one day of interest was omitted from MSHA’s interest
    calculation each month.
•   OSHA only records interest receivable when debt letters are sent to employers and
    when debt is sent to Treasury, and does not ensure that its quarter-end interest
    receivable balances are appropriately accrued between the time of the last debt
    letter and the time the debt is sent to Treasury.
•   OSHA collections are not properly cut-off at year-end. $819,126 of FY 2005
    collections were posted to DOLAR$ and the Statement of Custodial Activity in
    FY 2006, and $1,236,416 of FY 2006 collections were posted to DOLAR$ and the
    Statement of Custodial Activity in FY 2007.



Prepared by KPMG LLP                                                                         49
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


Recommendations

1. We recommend that the Chief Financial Officer, the Assistant Secretary for
   Occupational Safety and Health, and the Assistant Secretary for Mine Safety
   and Health enhance policies, procedures, and related systems to ensure the
   timely notification to employers of debt delinquency timely and the timely
   notification to Treasury of outstanding debt.

OSHA Management’s Response

“OSHA had one exception in the 27 tested cases (96.3% compliant).

OSHA continues to have in place policies and procedures to ensure that penalties over
180 days delinquent are forwarded promptly to the Treasury for collection.

In this area, we have consistently attained a goal of over 90% compliance with
requirements. Historically, the OIG has considered 90% of the cases being forwarded
to the Treasury within 180 days to be substantially compliant with the Act. Our
procedures to ensure timely transfer include monthly transmittals to regional and area
offices of listings of eligible debt for follow up and action. We also report quarterly the
status of our eligible debt to the Treasury Financial Management Service via the TROR
report.”

OCFO Management’s Response

No response was provided.

MSHA Management’s Response

No response was provided.

Auditors’ Conclusion

This recommendation is considered unresolved pending completion of a corrective
action plan with specified timeframes for implementation.

2. We recommend that the Chief Financial Officer, the Assistant Secretary for
   Employment Standards, and the Assistant Secretary for Mine Safety and
   Health develop and implement policies and procedures to write-off debt
   greater than 2 years old in accordance with OMB Circular No. A-129.

ESA Management’s Response

“Management concurs with the recommendation and has charged our Division of
Financial Management to coordinate with the OFCO to develop and implement uniform
policies and procedures for the collection of debts and write-offs to ensure compliance
50                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


with the U.S. Treasury’s Debt Management Services and the OMB Circular No. A-129.
We will have draft procedures by March 31, 2007.”

OCFO Management’s Response

“In fiscal year 2006, the OCFO updated the DLMS 6, Chapter 900 - Financial
Management. The Chapter is currently in the Departmental clearance process. The
revised guidance includes the following sections:

A. DOL is required to transfer delinquent or defaulted debts to the U.S. Department of
   the Treasury, Financial Management Service (FMS) for collection. If the debt
   remains delinquent or in default for over 180 days, it is forwarded to FMS for
   collection.

B. Write-off of a debt should occur when the agency determines that the debt has no
   value for accounting purposes. Write-off may occur before, concurrently with, or
   after the agency determines that collection action should be terminated. Generally,
   write-off is mandatory for debts delinquent more than two years, unless documented
   and justified to OMB in consultation with Treasury. See OMB Circular No. A-129.

   Within two years of the debt of delinquency, the agency should be able to evaluate
   the likelihood that it will collect on a delinquent debt and either:

       (1)   Write-off and classify the debt as currently-not-collectible (CNC), which will
             allow for further collection action;
       (2)   Write-off and classify the debt as close-out, which means that the agency
             will cease all debt collection activities on the debt;
       (3)   Document and justify why the debt is not being written-off.

OCFO routinely monitors accounts receivable on a monthly basis. In addition, OCFO
hosted a training session for the Department’s agencies on accounts receivable
conducted by the Department of Treasury. OCFO also reviews the agencies’ quarterly
reports on receivables due from the public to ensure compliance with OMB Circular No.
A-129.”

MSHA Management’s Response

No response was provided.

Auditors’ Conclusion

As all parties addressed in this recommendation did not provide a response or
corrective action plan, this recommendation is considered unresolved pending
completion of a corrective action plan from all addressed parties with specified
timeframes for implementation.

Prepared by KPMG LLP                                                                         51
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


We recommend that the Chief Financial Officer and the Assistant Secretary for
Mine Safety and Health:

3. Develop policies and procedures to reconcile the MSHA subsidiary ledger to
   the general ledger on a quarterly basis. These reconciliations should be
   documented, reviewed and approved by an appropriate supervisor, and
   maintained.

4. Design, test, and implement changes to MSHA’s subsidiary ledger to correct
   errors in the calculation of interest and ensure that controls are in place to
   detect such system errors in the future.

OCFO Management’s Response

No response was provided.

MSHA Management’s Response

No response was provided.

Auditors’ Conclusion

As Management provided no response or corrective action plan, these
recommendations are considered unresolved pending completion of a corrective action
plan with specified timeframes for implementation.

We recommend that the Chief Financial Officer and the Assistant Secretary for
Occupational Safety and Health:

5. Develop policies and procedures to accrue and record interest receivable on a
   quarterly basis.

6. Develop policies and procedures to record collections received near year-end
   in the general ledger in the proper fiscal year.

OSHA Management’s Response

“OSHA currently accrues interest on all debt once it is with the Treasury. The reason for
not updating the interest accrual on a regular, monthly basis for cases prior to being
referred is because Area Offices handle the cases until referral. The National
Office financial staff is not continually updated on Area Office activities regarding
abatement, settlement, and collection. Furthermore, it is not feasible to make the Area
Office responsible for reconciling an automatic update of their cases. This would be too
time intensive and an inefficient use of our limited resources. This is particularly true at
the present time when the Treasury interest rate on such receivables is 1% per month.
Our practices have been reviewed in prior audits and found to be acceptable.
52                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements



OSHA Deposits are recorded in DOLAR$ based on the date the deposit is confirmed by
the U. S. Treasury. This date is sometimes different from the date on the “CASH Link”
activity report and inevitably carries into the next month when deposits are received at
month-end. OSHA deposits and reconciliation are performed within the guidelines
established by the U. S. Treasury and are posted to the proper fiscal year.”

OCFO Management’s Response

No response was provided.

Auditors’ Conclusion

As all parties addressed in this recommendation did not provide a response or a
complete corrective action plan, this recommendation is considered unresolved
pending completion of a corrective action plan from all addressed parties with specified
timeframes for implementation.




Prepared by KPMG LLP                                                                         53
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements




54                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements




Management Advisory Comments




Prepared by KPMG LLP                                                                         55
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements




56                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements



1. Managerial Cost Accounting System Not Fully Implemented

In the FY 2002 audit (Report No. 22-03-003-13-001), the Office of Inspector General
(OIG) reported that the Department of Labor (DOL or the Department) was not in
compliance with the requirements for managerial cost accounting contained in
Statement of Federal Financial Accounting Standard (SFFAS) No. 4, Managerial Cost
Accounting Concepts and Standards. Specifically, DOL had not defined outputs for its
operating programs nor developed the capability to routinely report the cost of outputs
at the operating program and activity levels. Further, DOL did not adequately link cost
information to performance measures at the operating program level for use in
managing program operations on a routine basis or use managerial cost information for
purposes of performance measurement, planning, budgeting or forecasting.

In the FY 2002 report, the OIG made the following recommendation:

Recommendation

We recommend that the Chief Financial Officer ensure the full implementation of
the comprehensive Department-wide plan by January 28, 2006.

In response to this finding, management developed a comprehensive plan to implement
a Department-wide management cost accounting (MCA) system that complies with the
requirements of SFFAS No. 4. As of the end of FY 2004, cost models were developed
for all major DOL agencies and their related programs, the MCA system was certified
for processing, and the cost accounting software was installed throughout each of the
program agencies.

During FY 2005, DOL focused on expanding and refining cost-model capabilities.
Significant accomplishments included updating each of the models with FY 2004 data,
and in some instances initiation of updates through the second quarter of FY 2005. An
initial set of periodic cost reports to be used for program management and performance
assessment was developed for each cost model. During FY 2005, program managers
also began to use cost-model information for budget formulation and justification,
resource allocation, and determining “best practices” across similar programs and/or
regions.      However, while DOL had made significant progress in implementing
managerial cost-accounting capabilities, current cost information was not yet being
widely used for decision making on a day-to-day basis.

DOL has made additional progress in FY 2006. DOL has acquired software that will
provide managers with predictive planning capabilities for budgeting and forecasting.
Also, management is currently developing plans of how cost data can be used in a more
formalized manner in the budget process. However, DOL cannot yet demonstrate that
cost information is being widely used for decision making on a day-to-day basis.


Prepared by KPMG LLP                                                                         57
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


Based on the progress made in implementing a cost accounting system throughout
DOL, we conclude that DOL is substantially compliant with SFFAS No. 4. In FY 2006,
the classification of this finding has been changed from Reportable Condition to
Management Advisory Comment. Nevertheless, this recommendation is resolved and
open pending verification that DOL is able to demonstrate the widespread use of
current, updated cost information for budgetary decision making and other day-to-day
decisions.

Management’s Response

“OCFO believes that DOL is substantially compliant with Statement of Federal Financial
Accounting Standard (SFFAS) No. 4, Managerial Cost Accounting Concepts and
Standards. DOL has defined outputs for its operating programs and developed the
capability to routinely cost the significant outputs and activities of its major operating
programs. The Cost Analysis Manager (CAM) system has an installed base of 200
users across the Department. Program managers have begun to use cost accounting
information for resource allocation and budget justification. Managerial cost accounting
capability has been expanded to include the costing of the Department’s strategic goals,
outcome goals, performance goals, and performance indicators for the Performance
and Accountability Report.

We will continue our efforts to further broaden the usage of cost accounting information,
particularly in the area of budgetary decision-making. To that extent, we are working to
incorporate predictive planning capabilities within agencies’ cost models to provide
analytical tools for performance-based budgeting. Other usage initiatives include a
Return on Investment analysis capability for ESA’s Wage Hour Division, a Working
Capital Fund allocation study, and an ETA Foreign Labor Certification fee study. In
addition, to make it easier for agencies to update cost models on a regular basis, we will
be rolling out a web-based data collection tool.”

Auditors’ Conclusion

This recommendation is resolved and open pending verification that DOL is able to
demonstrate the widespread use of current, updated cost information for budgetary
decision making and other day-to-day decisions.

2. Lack of Formal Policies and Procedures for Fund Balance with Treasury
   Reconciliations Performed by the Office of the Chief Financial Officer (OCFO)

The Fund Balance with Treasury (FBWT) account is an asset account representing the
future economic benefit of monies that can be spent for authorized transactions.
Federal agencies must use the general ledger FBWT account to reconcile with the
closing balances reported by the U.S. Department of the Treasury (Treasury). This
reconciliation is essential to enhancing internal controls, improving the integrity of


58                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


various U.S. Government financial reports, and providing a more accurate
measurement of budget results.

Management of federal agencies develop standard operating procedures to implement
policies and procedures that are critical to the effectiveness and efficiency of operations,
the reliability of financial reporting, and compliance with laws and regulations. In
addition, standard operating procedures increase management assurance that
procedures are performed consistently and accurately in a complete and appropriate
manner by personnel, which results in an audit trail to substantiate the performance of
significant events. Thus, standard operating procedures that are comprehensive,
outline responsibilities and requirements, and detail the FBWT process are critical to
management having reasonable assurance the reported ending FBWT account balance
is reliable.

The OCFO lacks formal policies and procedures to govern the FBWT reconciliations
related to the Statement of Differences (FMS-6652), Undisbursed Appropriation
Account Ledger (FMS-6653), Undisbursed Appropriation Account Trial Balance (FMS-
6654) and Unappropriated Account Trial Balance (FMS-6655), or the successor reports.

Lack of adequate written policies and procedures to address the FBWT reconciliation
process increases the following risks: (1) reconciliations may not be performed in a
consistent and timely manner; (2) sufficient documentation (i.e., physical or electronic)
may not be maintained to substantiate the performance of the reconciliation and
corrective actions; (3) incomplete reconciliations may be performed; (4) differences may
not be adequately researched and resolved; and (5) significant differences may not be
detected that could result in material misstatements to the FBWT account.

Management has not documented any written policies and procedures that address the
issues noted in the condition due to the lack of resources.

The Government Accountability Office’s (GAO) Standards for Internal Control in the
Federal Government states, “Control activities are the policies, procedures, techniques,
and mechanisms that enforce management’s directives, such as the process of
adhering to requirements for budget development and execution.” In addition, “Internal
control and all transactions and other significant events need to be clearly documented,
and the documentation should be readily available for examination. The documentation
should appear in management directives, administrative policies, or operating manuals
and may be in paper or electronic form. All documentation and records should be
properly managed and maintained.”

Treasury’s Fund Balance with Treasury Reconciliation Procedures A Supplement to the
Treasury Financial Manual I TFM 2-5100 November 1999 (Reconciliation Procedures),
states, “The procedures defined in this document provide step-by-step instructions on
reconciling the Fund Balance with Treasury (FBWT)….These procedures pertain to
Federal agencies that must report receipt and disbursement activity to Treasury.” The
reconciliation procedures also state, “Reconciliation and related verifications ensure and
Prepared by KPMG LLP                                                                         59
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


demonstrate the integrity of the accounting system. These functions are necessary for
a well-regulated system. To increase the efficiency of reconciling the fund balance,
each agency system should perform the following: each financial systems policies and
documented procedures should provide for: (1) regular and routine reconciliation of G/L
accounts, (2) thorough investigation of differences, (3) determination of specific causes
of differences, and (4) initiation of corrective action. This includes having the ability to
schedule coordinated cutoffs and systematically produce a trial balance of the G/L.
These activities must be scheduled and conducted to facilitate rather than impede the
reconciliation process.”

Recommendation

1. We recommend that the Chief Financial Officer develop written policies and
   procedures that specifically include identification of current internal controls in place,
   assignment of personnel to specific responsibilities within the FBWT reconciliation
   process, and a requirement that supporting documentation, whether electronic or
   hard copy, be retained to support that reconciliations are performed timely, are
   properly reviewed, and unresolved differences are properly explained, and
   appropriate corrective actions are taken.

Management’s Response

“OCFO will enhance current policies and procedures to specifically include identification
of current internal controls, assignment of personnel to specific responsibilities within
the FBWT reconciliation process, and a requirement that supporting documentation be
retained to support that reconciliations are performed timely, are properly reviewed, and
unresolved differences are properly explained and appropriate corrective actions are
taken. OCFO expects to complete the procedures by June 30, 2007.”

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

3. Lack of Monthly Reconciliation of Fund Balance with Treasury Undisbursed
   Appropriation Account Trial Balance (FMS-6654)

The Treasury Undisbursed Appropriation Account Trial Balance (FMS-6654) provides
agencies with summary data about their expenditure accounts.            This data is
summarized for each appropriation and fund account at the department level and the
bureau level for certain executive departments. The data includes the balance
forwarded at the beginning of the fiscal year, cumulative warrants, non-expenditures,
net disbursements to date, and closing balances at month end.


60                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                Findings and Recommendations Identified in an
                                                 Audit of the Consolidated Financial Statements


While the FMS-6654 provides cumulative summary information, the Undisbursed
Appropriation Account Ledger (FMS-6653) provides federal agencies with a monthly
FMS-6653 for expenditure accounts that have monthly activity. The FMS-6653 provides
information about the appropriation warrants issued, non-expenditures transfers,
transactions reported by agencies on the Statement of Transactions, and those reported
by other agencies, as well as certain centrally processed FMS documents. An account
without activity during a month would be reported in the FMS-6654, but would not be
reported in the FMS-66534.

DOL’s OCFO does not separately perform a reconciliation of its FBWT accounts to the
closing balances in the FMS-6654s as part of the monthly FBWT reconciliation process.

Because FMS-6653 reports are not generated for accounts without activity for the
month, the lack of the monthly FMS-6654 reconciliations increases the risk that any
discrepancies between the closing balances per Treasury and the Department of Labor
Accounting and Related Systems (DOLAR$) will not be reconciled in a timely manner,
or errors relating to erroneous transactions recorded in the general ledger and not
reported on a manually prepared SF-224 would not be detected.

The OFCO does not perform a separate reconciliation for the FMS-6654 report because
the data (e.g., balance forward current year, net disbursements, and closing balance)
reported are very similar to the data (e.g., balance forward current year, net
disbursements, and closing balance) reported on the FMS-6653. However, the OCFO
does not have any additional procedures designed to detect any differences between
the closing balances of the two reports.

Treasury’s Reconciliation Procedures, section 2-5100, states “Federal agencies must
reconcile their SGL 1010 account and any related sub-accounts with the FMS-6652,
6653, 6654 and 6655 on a monthly basis. They must also resolve all differences
between the balances reported on the G/L FBWT accounts and balances reported on
the FMS-6653, 6654, and 6655.” Additionally, “these statements [FMS-6654 and 6655]
are the sources an agency uses to determine Treasury’s control balance for each of its
fund account symbols. It is essential that the balances contained on these statements
be compared to the agency’s G/L balances to determine if they agree.”

Recommendations

We recommend that the Chief Financial Officer:

1. Prepare a separate monthly reconciliation for accounts reported in the Undisbursed
   Appropriation Account Trial Balance to decrease the risk that any discrepancies will
   not be handled in a timely manner.
2. Document procedures for this reconciliation and include a requirement that

4
 Treasury replaced the FMS-6653 and FMS-6654 with the Government-wide Accounting (GWA) Account
Statement, effective June 30, 2006.
Prepared by KPMG LLP                                                                        61
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


     supporting documentation should be retained.

Management’s Response

“OCFO initiated a monthly reconciliation for accounts reported in the Undisbursed
Appropriation Account Trial Balance in June 2006, with supporting documentation and
management review.        We will enhance current procedures to reflect the new
reconciliation by June 30, 2007.”

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

4. Lack of Procedures to Evaluate the Analysis of Doubtful Accounts Methodology

Each quarter, the Mine Safety and Health Administration (MSHA) adjusts the balance in
the allowance for doubtful accounts receivable according to its established
methodology. This methodology is based on information from the prior year audit. We
noted that MSHA does not evaluate the validity of its allowance for doubtful accounts
methodology related to accounts receivable on its own. Instead, MSHA uses
information discovered during the financial statement audit to adjust the methodology
accordingly.

The lack of a yearly evaluation of the methodology used to calculate the allowance for
doubtful accounts related to accounts receivable by appropriate MSHA personnel (i.e.,
the personnel most knowledgeable of MSHA’s accounts receivable portfolio) could
result in the allowance recorded being incorrect. This would cause a possible
overstatement or understatement of net accounts receivable.

In the past, MSHA has deemed it sufficient to rely on the financial statement auditors to
determine the appropriate methodology for the allowance for doubtful accounts. Based
on the auditors’ analysis, MSHA would post an adjustment and update its methodology.

Per SFFAS No.1, Accounting for Selected Assets and Liabilities, Sections 44 and 45:
losses on receivables should be recognized when it is more likely than not that the
receivables will not be totally collected. The phrase “more likely than not” means that
there is more than a 50 percent chance of loss occurrence.

SFFAS No.1 also states that “an allowance for estimated uncollectible amounts should
be recognized to reduce the gross amount of receivables to its net realizable value. The
allowance for uncollectible amounts should be re-estimated on each annual financial
reporting date and when information indicates that the latest estimate is no longer
correct.”

62                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements



Per GAO’s Standards for Internal Control in the Federal Government, “Control activities
occur at all levels and functions of the entity. They include a wide range of diverse
activities such as approvals, authorizations, verifications, reconciliations, performance
reviews, maintenance of security, and the creation and maintenance of related records
which provide evidence of execution of these activities as well as appropriate
documentation.”

Recommendation

1. We recommend that the Assistant Secretary for Mine Safety and Health develop and
   implement procedures for the performance and documentation of a yearly analysis
   of the allowance for doubtful accounts methodology related to accounts receivable in
   order to ensure that the allowance is adequate. This analysis should include a
   documented review by an appropriate individual other than the preparer.

Management’s Response

“MSHA agrees with this finding and recommendation. The agency is in the process of
obtaining additional guidance from the DOL OCFO on acceptable methods for analyzing
financial data (debt and collections) to determine the appropriate allowance for doubtful
accounts. MSHA will develop and implement new procedures for the performance and
documentation of a yearly analysis of the allowance for doubtful accounts by April 30,
2007. The agency will perform and document an FY 2007 analysis by June 30, 2007,
and will include in its new procedures an analysis of doubtful accounts by June 30 of
each subsequent year. The analyses will be performed by MSHA’s Assessments Office
with an independent review by MSHA’s Division of Budget and Finance.”

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

5. SF-132, Appropriation and Reapportionment Schedule, Lacks Evidence of Proper
   Review

The Departmental Budget Center implemented a control that requires authorized
personnel to sign SF-132 coversheets to document the proper review of the SF-132.
We identified two coversheets documenting the review of second quarter FY 2006 SF-
132s for the Employment Standards Administration (ESA) that had no indication of a
proper review by an authorized official.

The lack of a proper review increases the risk of an error within the SF-132s. In
addition, the coversheets are used to track the progress of SF-132 reviews. Without the
proper signature documenting a review, the status of reviews may be incorrect. Also,
Prepared by KPMG LLP                                                                         63
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


without adequately documented policies and procedures, newly hired personnel will not
be informed of the proper policies and procedures to follow.

This control was implemented in the second quarter of FY 2006. This new control was
not documented in a formal policies and procedures manual and, as such, may not
have been adequately communicated throughout the Department.

GAO’s Internal Control Standards in the Federal Government, Internal Control
Management and Evaluation Tool states, “Within the agency, there are mechanisms in
place to monitor and review operations and programs.” “Control activities occur at all
levels and functions of the agency. They include a wide range of diverse activities, such
as approvals, authorizations, verifications, reconciliations, performance reviews,
security activities, and the production of records and documentation.” “Procedures are
in place to ensure that the findings … [of] reviews are promptly evaluated, decisions are
made about the appropriate response, and actions are taken to correct or otherwise
resolve the issues promptly.” In addition, we confirmed with Departmental Budget
Officials that the SF-132 coversheet should be signed off as reviewed by an authorized
individual.

Recommendation

1. We recommend that Departmental Budget Center personnel ensure that agency
   reviews of the SF 132s are performed and documented, and that the related policies
   and procedures be documented in the Department of Labor Manual Series (DLMS).

Management’s Response

“The Office of the Assistant Secretary for Administration and Management (OASAM)
instituted a formal procedure for reconciliation of estimated carryover balances with
actual balances through the issuance of supplemental guidance to agency heads on
November 3, 2006. This guidance required agency heads to provide reapportionment
schedules to reflect actual unobligated balances of carryover funds by November 17,
2006. In addition, the Departmental Budget Center has instituted an enhanced tracking
system that will allow for notification of agency Administrative Officers, Agency Heads,
and the Assistant Secretary for Administration and Management if apportionments are
not submitted in a timely fashion.           Finally, the effective management of the
apportionment process has been added to agency Budget and Performance Integration
scorecards.     The reapportionments and accompanying allotments submitted in
response to the November 3, 2006, guidance will be entered in the DOLAR$ system
upon approval of OMB thus reconciling estimated carryover balances with actual
balances.’




64                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Auditors’ Conclusion

Management has not yet provided us with an adequate corrective action plan for this
finding. Therefore, this recommendation is considered unresolved pending completion
of a corrective action plan with specified timeframes for implementation.

6. Adequate Support for Certain Transactions not Provided Timely

Our procedures over an interim sample of 186 journal vouchers identified 24 for which
adequate supporting documentation was not provided prior to the completion of our
audit. All 24 were related to ESA. We also noted that one prior year recoveries sample
item was not properly supported.

During our year end procedures over a sample of 90 journal vouchers, we identified 68
for which adequate supporting documentation was not provided prior to completion of
our audit (distributed among DOL agencies as follows: 58 from ESA, 4 from ETA, 2 from
Bureau of Labor Statistics (BLS), and 4 from the Working Capital Fund). For 16 of the
68 items, no documentation was received.

Proper maintenance and management of supporting documentation is crucial to
supporting the accuracy and validity of transactions and also allows for adequate
supervisory reviews.

The lack of timely adequate support was primarily caused by the lack of coordination
among the DOL agencies in responding to audit requests for information.

GAO’s Standards for Internal Control in the Federal Government states “Internal control
and all transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination. The documentation should
appear in management directives, administrative policies, or operating manuals and
may be in paper or electronic form. All documentation and records should be properly
managed and maintained.”

Recommendation

1. We recommend the Chief Financial Officer and all DOL agencies improve
   coordination of their responses to audit requests to ensure the auditors are provided
   information by the due dates requested so as to allow for timely review, follow-up
   and resolution of any issues identified.

Management’s Response

“In response to last year’s audit, we identified several strategies to ensure documents
on Provided by Client (PBC) process list are provided to auditors on time. Specifically,
key OCFO employees are responsible for handling the detailed tracking of the PBC list.

Prepared by KPMG LLP                                                                         65
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


This includes ensuring the persons responsible for a deliverable know when and what
information is to be provided. OCFO’s involvement in the PBC list process in both an
oversight and enforcement role should allow us to meet the mutually agreed upon dates
for deliverables.”

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

7. Lack of Performance of a Complete Reconciliation of Budgetary to Proprietary
   General Ledger Account Relationship Analyses

During procedures over the budgetary to proprietary account relationship analyses
performed by the OCFO as of March 31, 2006, we noted that 6 of the 10 requested
account relationship tests were not completed. The OCFO could not provide any
documentation related to these missing analyses. In addition, explanations were not
provided for variances identified in the four analyses that were completed.

The OCFO may not detect material differences within budgetary to proprietary
accounts, increasing the risk of misstating the year-end financial statements. For
instance, the budgetary to proprietary analysis performed by the OCFO over Accounts
Receivable vs. Budgetary Receivables resulted in a difference of ($7,101,847). In
addition, the budgetary to proprietary analysis performed by the OCFO over Advances
vs. Unfilled Customer Orders with Advances, resulted in a difference of ($2,726,123). If
the analyses had not been performed, these differences may not have been detected,
causing misstatements in the related financial statements.

The OCFO does not have policies and procedures that require the completion and
subsequent supervisory review of account relationship analyses to ensure that any
reconciling items are adequately explained.

Per GAO’s Internal Control Management and Evaluation Tool (8/01), “this information
should be available on a timely basis to allow effective monitoring of … activities, and
transactions and to allow prompt reaction.”

In addition, GAO’s Standards for Internal Control in the Federal Government states,
“Control activities occur at all levels and functions of the entity. They include a wide
range of diverse activities such as approvals, authorizations, verifications,
reconciliations, performance reviews, maintenance of security, and the creation and
maintenance of related records which provide evidence of execution of these activities
as well as appropriate documentation.”



66                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Recommendation

1. We recommend that the Chief Financial Officer develop and implement policies and
   procedures that require (a) the preparation and documentation of quarterly
   budgetary to proprietary relationship analyses, (b) the completion of documented
   supervisory reviews over the analyses, and (c) the completion of these analyses by
   a certain date (e.g., 15 days after each quarter-end).

Management’s Response

“OCFO is enhancing current policies and procedures to require that the quarterly
reconciliation of the SF-133 reports and the proprietary accounts be done on a quarterly
basis beginning second quarter FY 2007. The reconciliation will be completed 30 days
after each quarter’s reporting period. The reconciliation will be supported by full
documentation and supervisory approval.”

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

8. Errors Noted in Payroll-related Employer and Employee Contributions

The U.S. Department of Agriculture’s National Finance Center (NFC) processes DOL’s
payroll and payroll-related benefits. The Fiscal Year 2006 – Office of the Chief
Financial Officer/National Finance Center General Control Review dated September 21,
2006, and issued by the U.S. Department of Agriculture’s Office of Inspector General
(Report No. 11401-24-FM) reported a qualified opinion on NFC’s internal controls for
the period October 1, 2005, through June 30, 2006.

In our sample of 45 employees selected for controls and compliance testing, we noted
that for one employee tested, actual employer contributions to employee retirement
accounts and calculated amounts based on guidelines for employer retirement
contribution rates published by the Office of Personnel Management (OPM) did not
agree. As such, DOL is not in full compliance with regulations related to Civil Service
Retirement System (CSRS) retirement payments.

In addition, based on our substantive test work performed over payroll and benefit
expenses, we determined that CSRS benefits, FEGLI benefits, and Thrift Savings Plan
(TSP) benefits for certain employees were not properly withheld from employee gross
pay each pay period based on employee elections and guidelines set by OPM, and
were not recorded properly on employee Statements of Earnings and Leave. We noted
a total of 14 exceptions.


Prepared by KPMG LLP                                                                         67
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements



Exceptions to the general withholding and contribution rules may be the cause of these
apparent errors. In addition, the OCFO does not currently have formal policies and
procedures in place to review and reconcile payroll information processed by NFC.

OPM’s CSRS and FERS Handbook for Personnel and Payroll Offices, Subchapter 30A
CSRS, Section 30A2.1-1A, states, “The exact amount of retirement deductions withheld
from basic pay is set by law.” For fiscal year 2006, employing agencies must deduct
and withhold 7.0 percent from full (non-Offset) CSRS employees' basic pay (similar to
agency contribution rates for fiscal year 2006).

Retirement and Insurance Service Benefits Administration Letter, No. 02-312, states,
“Thus, for “regular” CSRS employees, the agency contribution rate will be reduced from
the current 8.51 percent of basic pay to 7.5 percent in October 2002 and to 7.0 percent
in January 2003.”

The FEGLI booklet for Federal employees (FE 76-21) states, “Basic insurance provides
term life insurance at group rates. The Federal Government pays one-third of the cost
of your Basic insurance. If you are eligible, you are automatically covered under Basic
insurance, unless you waive this coverage.” “Your Basic Insurance Amount (BIA) is
equal to the greater of (a) your annual rate of basic pay rounded up to the next even
$1,000 plus $2,000, or (b) $10,000.” “Basic insurance also provides an Extra Benefit to
employees under age 45, at no additional cost. This Extra Benefit doubles the amount
of Basic insurance payable if you die when you are age 35 or younger. The Extra
Benefit decreases 10% each year until there is no Extra Benefit if you die at age 45 or
older.” Additionally, “Enrollment in Optional insurance is not automatic. If you want
Optional insurance as a new employee, you must submit a completed Life Insurance
Election (SF 2817) to your human resources office within 31 days from the date of your
appointment to an eligible position. Your opportunities to enroll in Optional insurance
after those 31 days are limited.”

The Summary of the Thrift Savings Plan, (http://www.tsp.gov/forms/tspbk08.pdf), states,
“Regular employee contributions are payroll deductions that any eligible Federal Civilian
employee or member of the uniformed services can make from basic pay before taxes
are withheld. You can begin making these contributions at any time.” Also, “Each pay
period, your agency or service will deduct your contributions to the TSP from your pay in
the amount you choose. Your agency or service will continue to do so until you make a
new TSP election changing the amount of your contribution or stopping it.” Additionally,
“If you are a FERS employee, your agency will contribute an amount equal to one
percent of the basic pay you earn each pay period to your account.”




68                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Recommendations

1. We recommend that the Chief Financial Officer investigate the exceptions noted in
   our samples and correct the employee withholding and employer contribution
   balances as needed based on the results of this investigation.

2. As part of the reconciliation process recommended as part of Reportable Condition
   No. 8, related to the lack of controls at DOL over data processed by NFC, we
   recommend that the Chief Financial Officer develop and implement procedures to
   periodically review and validate a sample of withholding and contribution amounts.

Management’s Response

For the instance where actual CSRS employee withholding and employer contribution
did not agree with calculated amounts, OCFO is conducting research to ascertain why
the National Finance Center (NFC) Personnel and Payroll System (PPS) withheld
incorrect amounts.

Regarding the TSP samples, OCFO does not concur with the auditor’s finding. OCFO
determined all deductions withheld were accurate. The reason the auditor found
differences was because the auditor did not use the current employee election
information for the selected pay periods.

Regarding the recommendation to review and validate withholding and contribution
amounts, the DOL budget offices currently validate TSP, CSRS and FEGLI amounts
every pay period.

Auditors’ Conclusion

For the instance where actual CSRS employee withholding and employer contribution
did not agree with calculated amounts, this part of recommendation no. 1 is considered
unresolved pending completion of a corrective action plan with specified timeframes for
implementation.

Regarding the TSP sample items, we identified the exceptions as a result of our
testwork, based on the information that was provided to us at the time. As no additional
support was provided by DOL, this part of recommendation no. 1 is considered
unresolved pending completion of a corrective action plan with specified timeframes for
implementation.

Regarding the recommendation to review and validate withholding and contribution
amounts, recommendation no. 2 is considered unresolved pending completion of a
corrective action plan with specified timeframes for implementation.




Prepared by KPMG LLP                                                                         69
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


9. Inaccurate Employee Accrued Leave Amounts

Certain accrued leave hours were not accurate, leading to incorrect liability balances
recorded in DOLAR$. Of 119 sample items tested as of August 31, 2006, 9 exceptions
were noted in the calculation of employees’ accrued leave hourly balances. No
exceptions were noted in the calculations of employees’ hourly rates, used to
determined total accrued leave recorded in DOLAR$.

Additionally, when the list of employees and their accrued leave balances as of
August 31, 2006, was reviewed by employees of the OIG, it was found that employees
who had either resigned or transferred from DOL between four and nine months prior
still had accrued leave balances reported at August 31, 2006.

As a result of these exceptions, the accrued leave balances may be misstated. The
statistical extrapolation of our test errors resulted in a $1 million overstatement5 of the
liability as of August 31, 2006.

These exceptions were the result of the NFC making adjustments to accrued leave
balances without DOL’s knowledge, and the lack of reconciliation procedures in place
between DOL and NFC to identify variances. In addition, the OCFO does not currently
have formal policies and procedures in place to review the accrued leave detail
periodically to ensure the validity of the normal accrued leave hours. The cause of
separated employees continuing to be included in the accrued leave balances is
unknown.

The Office of Management and Budget (OMB) Circular No. A-123, Management’s
Responsibility for Internal Control, states, “Application control should be designed to
ensure that transactions are properly authorized and processed accurately and that the
data is valid and complete. Controls should be established at an application’s interfaces
to verify inputs and outputs, such as edit checks. General and application control over
information systems are interrelated, both are needed to ensure complete and accurate
information processing. Due to the rapid changes in information technology, controls
must also adjust to remain effective.”

Per GAO’s Standards of Internal Control in the Federal Government, “Internal control
should generally be designed to assure that ongoing monitoring occurs in the course of
normal operations. It is performed continually and is ingrained in the agency’s
operations. It includes regular management and supervisory activities, comparisons,
reconciliations, and other actions people take in performing their duties.”




5
 This statistical projection utilized a confidence level of 93% and precision of 4.82%.
70                                                                                  Prepared by KPMG LLP
                                            for the U.S. Department of Labor—Office of Inspector General
                                                                         Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Recommendations

We recommend that the Chief Financial Officer:

1. Investigate all 9 exceptions noted in our sample and correct the employee accrued
   leave balances as needed based on the results of this investigation.

2. Develop and implement procedures to periodically review the accrued leave detail to
   ensure that the hours are accurate and valid. These reviews should be documented,
   reviewed and approved by an appropriate supervisor, and maintained, and could be
   completed as part of the reconciliation process recommended in Reportable
   Condition No. 8, related to the lack of controls at DOL over data processed by NFC.

3. Investigate the accrued leave balances at August 31, 2006, for the former OIG
   personnel, determine the cause, and take appropriate corrective action to remove
   their balances and prevent future reoccurrences.

OCFO Management’s Response

“Separated employees leave balances in PeoplePower are not zeroed out after a
payout request is processed at NFC. A new procedure has been developed to address
the leave balances issue during the payroll cycle. This new procedure will perform the
following tasks:

       For all employees separated during or just prior to the pay cycle where the
       separation action has been applied at NFC the system will:

              •   Insert a new row into PeoplePower’s Accrual Summary table, which
                  will carry the effective date of the termination with a zero balance for
                  each leave category in which the separated employee was enrolled.

              •   A report will be produced and distributed to each HR office via Brio
                  Portal. This report will include identifying information for the employee,
                  effective date of the separation, balance for each accrual class before
                  the zero row was inserted, and the balance of each accrual class after
                  the zero row was inserted.

              •   A memo will be sent to the HR and AO community providing guidance
                  and instructions on this issue. The HR staff will be instructed to review
                  the pay and deduct report each pay period to ensure the leave payout
                  request has been processed in the NFC system and the NFC system
                  (TINQ) has a zero balance for all payable leave accrual classes.

These changes will also address the lingering issue of the accrued leave balances for
former OIG personnel.
Prepared by KPMG LLP                                                                         71
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements



Auditors’ Conclusion

Recommendation no. 2 is considered resolved and open. FY 2007 audit procedures
will determine whether the recommendation has been adequately addressed and the
condition closed.

Recommendation nos. 1 and 3 are considered unresolved, pending investigation and
corrective action related to the 9 exceptions identified for the inaccurate employees’
accrued leave hourly balances and the accrued leave balances at August 31, 2006, for
the former OIG personnel.

10. Subledger Did Not Reconcile from Period to Period

The MSHA Standardized Information System (MSIS) is MSHA’s accounts receivable
system. MSIS has the capability to initiate, collect, process, maintain, and report
current and historical data. When problems are noted in the system, the user submits a
“ticket” with technology support in order to have the problem corrected.

In order to determine if a material change occurred in the accounts receivable balance
related to Civil Monetary Penalties (CMPs) from June 30, 2006, to August 31, 2006, we
obtained subledgers from all agencies for the periods October 1, 2005, through
June 30, 2006, July 1 through July 31, 2006, and August 1 through August 31, 2006.
For MSHA, we noted that the ending balance on the subledger from October 1, 2005,
through June 30, 2006, did not agree to the beginning balance of the subledger from
July 1 through July 31, 2006, by $134,322. Also, the ending balance of the July 1
through July 31, 2006, subledger did not agree to the beginning balance of the
subledger from August 1 through August 31, 2006, by $46,506. As such, the balances
within MSIS may not be consistent from period to period.

Currently, a number of “ticket” requests are outstanding with MSIS technical staff to
correct problems with MSIS. When these tickets are addressed, they correct the
original error instead of recording an adjustment, which causes balances of subledgers
from other periods to change. For example, if a refund was entered incorrectly in March
and the ticket was not addressed until June, when the June subledger is printed out, its
beginning balance will not equal the ending balance for May because May’s ending
balance contains the incorrect refund amount and June’s beginning balance contains
the correct refund amount.

The purpose of the Federal Financial Management Improvement Act of 1996 (FFMIA) is
to advance Federal financial management by ensuring that Federal financial
management systems provide accurate, reliable, and timely financial management
information to the government’s managers. OMB Circular No. A-127 states, “Financial
management in the Federal government requires accountability of financial and
programs managers for financial results of actions taken, control over the Federal

72                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


government’s financial resources, and protection of Federal assets. To enable these
requirements to be met, financial management systems must be in place to process and
record financial events effectively and efficiently, and to provide complete, timely,
reliable, and consistent information for decision makers and the public.”

Recommendation

1. We recommend that the Assistant Secretary for Mine Safety and Health design, test,
   and implement changes to MSIS so that when “tickets” are addressed in the system,
   they are recorded as adjustments and do not directly change historical entries that
   have been previously recorded.

Management’s Response

“MSHA agrees with this finding and recommendation. In December 2006, the agency
started designing the recommended changes to MSIS so that items recorded as
adjustments will not directly affect historical entries that have been previously recorded.
The testing and implementation of these changes will be completed by June 30, 2007.”

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

11. Errors Noted in Accounts Receivable Aging Reports

MSIS, MSHA’s accounts receivable system, produces a report that ages debts based
on their delinquency dates. This report is used to calculate the allowance for doubtful
accounts.

Aging categories for certain cases listed in MSIS were not accurate as of August 31,
2006. We noted that cases that were aged 90 days were incorrectly placed in the 91-
181 aging category and cases that were aged 365 days were incorrectly placed in the 1-
2 year aging category. We determined that these cases were placed in the incorrect
aging category due to a system error. This resulted in an understatement of the 1-90
days aging category by $18,566, an overstatement of the 91-180 days bucket by
$18,566, and understatement of the 181-365 days aging bucket by $43,447 and an
overstatement of the 1-2 year aging bucket by $43,447.

When cases are assigned incorrectly to aging categories, the total balances of aging
categories are incorrect. Because the allowance for doubtful account balance is
calculated based on this aging report, this error can result in a misstatement of the
allowance for doubtful accounts.


Prepared by KPMG LLP                                                                         73
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


The purpose of FFMIA is to advance Federal financial management by ensuring that
Federal financial management systems provide accurate, reliable, and timely financial
management information to the government’s managers. OMB Circular No. A-127
states, “Financial management in the Federal government requires accountability of
financial and programs managers for financial results of actions taken, control over the
Federal government’s financial resources, and protection of Federal assets. To enable
these requirements to be met, financial management systems must be in place to
process and record financial events effectively and efficiently, and to provide complete,
timely, reliable, and consistent information for decision makers and the public.”

Recommendation

1. We recommend that the Assistant Secretary for Mine Safety and Health design, test,
   and implement changes to MSIS so that cases are aged properly.

Management’s Response

“MSHA agrees with this finding and recommendation. The aging report design was
completed on January 10, 2007. Development, testing and implementation will be
completed by March 31, 2007.”

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

12. Unemployment Compensation Advisory Council Not Established

In the FY 1997 audit (OIG Report No. 12-98-002-13-001), the OIG reported that the
Unemployment Compensation Advisory Council (UCAC) required by the Social Security
Act had not been reestablished. Section 908 of the Social Security Act makes no
provision for delaying the establishment of a new advisory council, and the issues for
which the UCAC is responsible are significant to the unemployment insurance program.

In the FY 1997 report, the OIG made the following recommendation:

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure
that the Unemployment Compensation Advisory Council is reestablished as
required by Section 908 of the Social Security Act.

The Employment and Training Administration (ETA) does not believe that the UCAC is
the most effective way to evaluate the unemployment compensation program and has

74                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


proposed a related amendment to the Social Security Act in the Unemployment
Compensation Program Integrity Act of 2006. However, DOL is not currently in
compliance with section 908 of the Social Security Act.

According to section 908 of the Social Security Act, starting in 1992 and “every 4th year
thereafter, the Secretary of Labor shall establish an advisory council to be known as the
Advisory Council on Unemployment Compensation.” The purpose of this council is to
“evaluate the unemployment compensation program, including the purpose, goals,
countercyclical effectiveness, coverage, benefit adequacy, trust fund solvency, funding
of State administrative costs, administrative efficiency, and any other aspects of the
program and to make recommendations for improvement.”

Management’s Response

“ETA disagrees with the recommendation. Subsequent to establishment of the initial
council in 1992, Congress has not appropriated funds to support an advisory council or
communicated a desire for establishment of subsequent councils. ETA has not
received any inquiries or expressions of interest from other stakeholders about
establishing an advisory council. ETA believes the most practical way to close the
finding is to alter the legislative requirement. To that end, the FY 2007 President’s
Budget proposal includes several initiatives requiring legislative action. Among these
initiatives is a proposal to amend the provision on the UCAC to permit, rather than
require, the Secretary of Labor to periodically convene a council. A legislative package
comprised of these initiatives has been delivered to Congress for action. ETA will
continue to press for this legislation until passed.”

Auditors’ Conclusion

Our conclusion regarding the UCAC is based on requirements set forth in existing
legislation. This recommendation remains unresolved until such time that ETA
complies with the legislative requirement.

13. Noncompliance with the Cash Management Improvement Act of 1990

During our internal control testing over grants, we noted that grantees of ETA appeared
to be drawing down more cash than needed based on their reported costs. Of 232
grants tested, 35 ETA grants had cumulative cash drawdowns exceeding cumulative
costs by greater than 5 percent. As such, DOL is not in full compliance with regulations
related to the Cash Management Improvement Act of 1990 (CMIA) since grantees were
drawing down funds in excess of their immediate cash needs.

Although the Federal Project Officer (FPO) is assigned to review the reasonableness of
cash drawdowns, ETA does not have defined policies on what amount of excess
drawdowns is acceptable or what specific steps to take if a grantee is drawing down too
much money.

Prepared by KPMG LLP                                                                         75
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


The purpose of the CMIA is “to ensure greater efficiency, effectiveness, and equity in
the exchange of funds between the Federal Government and the States.” CMIA also
states that “Each head of an executive agency shall, under such regulations as the
Secretary of the Treasury shall prescribe, provide for the timely disbursement of Federal
funds through cash, checks, electronic funds transfer, or any other means identified by
the Secretary.”

Further guidance on the CMIA was issued in Treasury’s Code of Federal Regulations
Part III, “Rules and Procedures for Efficient Federal-State Fund Transfers; Final Rule.”
These rules give federal agencies guidance on the Notice of Proposed Rulemaking
(NPRM), which was published by the Financial Management Service proposing
revisions to the regulations implementing CMIA. In the “Rules” Treasury states, “It has
been our longstanding policy position, consistent with the purpose of CMIA that funds
cannot be drawn down in advance of need.                   Because questions regarding
compensating balances have arisen, this section of the rule is meant to merely clarify
existing policy prohibiting the drawing down of funds for the purpose of maintaining a
compensating balance. This does not prohibit those States that are required to have
funds on hand before issuing checks from drawing down funds early nor does it prohibit
those States from deducting their banking costs from any interest paid. Some State
Constitutions require that States have funds on hand before issuing checks. These pre-
issuance States are allowed to draw funds early, but are subject to interest liability. The
commenters strongly recommended retaining the current three-day drawdown window
for pre-issuance States, rather than the two-day window proposed in the NPRM. One
State said the proposed two-day drawdown window was ‘‘arbitrary and unrealistic’’ while
another State entity called it ‘‘unnecessary and restrictive.’’ We agree that the two-day
window proposed in the NPRM may not give States sufficient time to ensure that funds
are on hand prior to the issuance of payments. This section has, therefore, been
amended to retain the three-day drawdown window that currently exists.”

Recommendation

1. We recommend that the Assistant Secretary for Employment and Training develop
   and implement specific policies and procedures for the review of a grantee’s
   drawdowns versus the reported costs, including:

     • Determination of a specific percentage of excess cash that is reasonable for a
       grantee to draw down.
     • Steps that the FPO must follow if a grantee draws down more than the pre-
       determined acceptable amount.
     • Review by an independent person of a quarterly report of grantees’ drawdowns
       versus reported costs to identify all grantees that exceed the tolerable amount,
       selection of a sample of such grantees to verify that the FPOs are performing the
       required follow-up procedures, and documentation of this review.



76                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Management’s Response

“ETA has already taken action to improve grantee financial management and ETA’s
oversight, and continues to make improvements in this area. A guide is in development
for use by our own staff when reviewing grantee finances. This draft guide has been
shared with, and training given to, ETA specialists who conduct such reviews. In
addition to being covered in new grantee training, workshops covering management of
cash were added to the national training conferences on Financial and Administrative
Management. Two conferences have been held already in FY 2007, another is
scheduled for April and more may be added due to the interest shown so far. Also, ETA
plans on developing new reports to be used by FPOs in their desk reviews to ensure
consistency in reviews.”

Auditors’ Conclusion

This recommendation is considered unresolved pending completion of a corrective
action plan with specified timeframes for implementation of each recommendation.

14. Certain Improvements Needed in Financial Reporting

We determined that DOL omitted the following required disclosures from its FY 2006
Performance and Accountability Report (PAR):

• Required Supplementary Stewardship Information (RSSI) – The ETA and Job Corps
  disclosure omits certain outputs and outcomes.
• Required Supplementary Information (RSI) - Deferred maintenance disclosure omits
  asset condition information.
• Programs and costs in the Statement of Net Cost (SNC) and the related
  suborganizations in Note 14 do not clearly link to the strategic goals included in
  Management’s Discussion and Analysis (MD&A).

OCFO personnel could not easily obtain the required information once we brought these
items to their attention. As a result, the DOL FY 2006 PAR does not include all
disclosures required by U.S. generally accepted accounting principles. Because of the
importance of the RSSI disclosure cited above to DOL’s overall mission, we included a
sentence in our FY 2006 financial statement opinion about this omission. In addition,
the RSSI and RSI omissions were included on the Summary of Omissions attached to
the FY 2006 management representation letter. Finally, PAR readers are unable to
easily relate the audited costs presented in the SNC to the strategic goals discussed in
the MD&A.

SFFAS No. 8, Supplementary Stewardship Reporting, establishes standards for
reporting on the Federal government’s stewardship over certain resources entrusted to
it, identified as stewardship property, plant, and equipment and stewardship
investments. SFFAS No. 8 states, “The goal of the stewardship objective is that the
Federal Government ‘report on the broad outcomes of its actions.” It goes on to read
Prepared by KPMG LLP                                                                         77
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


that output data should “provide indications of the intended program outcomes and shall
be used to justify continued treatment…”

Section II.4.11.4 of OMB Circular No. A-136 states, “Continued categorization of human
capital expenses as investment for stewardship purposes is predicated on
demonstrated outputs and outcomes consistent with the intent of the program. SFFAS
No. 8 describes the criteria which shall be met for these expenses to continue to be
categorized as stewardship investments. Outcome and output measures used to justify
continued treatment of expenses as stewardship investments should be clearly
identified in the agency's financial statement, and the relationship of the outcomes and
outputs to the stewardship investments should be readily apparent.”

SFFAS No. 6, Accounting for Property, Plant and Equipment, paragraph 83 states, “At a
minimum, the following information shall be presented for all PP&E (each of the four
categories established in the PP&E standard should be included)… If the condition
assessment survey method of measuring deferred maintenance is used, the following
should be presented for each major class of PP&E:

     •   description of requirements or standards for acceptable operating condition,
     •   any changes in the condition requirements or standards, and
     •   asset condition and a range estimate of the dollar amount of maintenance
         needed to return it to its acceptable operating condition.”

Section II.2.6 of OMB Circular No. A-136 states, “Entities should strive to articulate
efficiency and effectiveness by developing and reporting objective measures that, to the
extent possible, indicate results achieved and relate major goals and objectives in their
strategic plan to cost categories (i.e., responsibility segments) presented in the entity’s
Statement of Net Cost (SNC).” In addition, section II.4.4 of OMB Circular No. A-136
states, “Preparers of the SNC should present responsibility segments that align directly
with the major goals and outputs described in the entity's strategic and performance
plans, required by Government Performance and Results Act (GPRA).”

Recommendation
1. We recommend that the Chief Financial Officer develop and implement procedures
   to compile and report the information discussed above in the FY 2007 and future
   PARs. Related supporting documentation should be maintained and made available
   to the auditors for review.

Management’s Response

“OCFO will develop and implement procedures to compile and report the RSSI and the
RSI disclosers in accordance with OMB Circular A-136. The links between the
programs and costs in the SNC to the MD&A will be strengthened for future PARs as
well. Related supporting documentation will be properly maintained and accessible.
Target completion date is September 2007.”
78                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements



Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

15. Improvements Needed in Grant Controls

ETA is the largest grant-making agency within DOL. When ETA issues a grant, a
standard grant agreement/Notice of Award (NOA) is sent to the applicant notifying the
applicant of the award. If the applicant accepts the terms and conditions outlined in the
agreement, the applicant signs the agreement. Upon receipt of the signed agreement
from the applicant, the Grant Officer certifies the grant award, as evidenced by his/her
signature on the agreement.

Upon execution of the grant agreement by the Grant Officer, an Obligation Action
Request (OAR) Form is completed and signed by the Grant Officer. Once the grant has
been approved by the Grant Officer and the OAR has been forwarded to the Division of
Financial and Systems Services (DFSS), an accountant in DFSS checks DOLAR$ to
ensure that the committed funds were entered into DOLAR$ prior to entry of the
obligation. The accountant then enters the obligation into DOLAR$.

The grantee is required to submit quarterly Financial Status Reports (SF 269) which
document the costs incurred by the grantee. The assigned FPO initially performs a
cursory review of the SF 269 and then performs a more comprehensive review and
analysis of the financial reports within 30 days of receipt of the reports. The FPO is
responsible for ensuring that the grantee is submitting its required reports in a timely
manner and that the amounts are reasonable, accurate, complete, and in accordance
with the project. Additionally, the FPO reviews the cash draw downs to ensure that the
cash drawn down is being used to meet the grantee’s immediate cash needs. If any
discrepancies or issues are noted, the FPO contacts the grantee.

Grantees are also required to submit performance-based progress reports on a
quarterly basis. The assigned FPO performs a comprehensive review and analysis of
the performance reports within 30 days of receipt of the reports.

To aid in the FPO’s monitoring, DFSS generates a “Delinquent Cost Report” quarterly
from the Enterprise Business Support System (EBSS), which denotes those grantees
who are delinquent in reporting its costs to ETA. For those grantees identified, the
DFSS staff notifies the assigned FPO who is responsible for contacting the grantee to
ascertain the reason for the delinquency before further action is taken.

Grantees electronically request draw downs using the U.S. Department of Health and
Human Services’ (HHS) Payment Management System (PMS). DOLAR$ receives
payment information through a daily inbound interface via batch processing from PMS.
Prepared by KPMG LLP                                                                         79
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


If there are issues during the interface (e.g., suspense transactions), the DFSS staff
investigates and resolves the issue. The DOLAR$ Report L602 denotes those
disbursements per PMS that did not post to DOLAR$.

The above process description relates to ETA. Other grant-making DOL agencies have
similar controls.

During our testing over grants in FY 2006, we noted the following weaknesses in
internal control:

•   The review of delinquent cost reports was not performed by DFSS during the entire
    year. Additionally, six of ten delinquent grantees selected did not have adequate
    documentation supporting that the FPO had followed up with the grantees on the
    report delinquencies.
•   Adequate support is not maintained for suspense transactions that have to be
    resolved by the appropriate agencies instead of DFSS (1 of 15 days tested;
    exception related to OASAM).
•   Instance in which grantees report costs greater than the obligation amount (i.e., a
    type of suspense transaction) are not resolved in a timely manner (exception related
    to ETA).
•   Grant Agreement/NOA or grant modifications tested did not consistently have
    documentation of proper authorization (5 of 152 items tested; 4 exceptions related to
    VETS and 1 exception related to ETA).
•   OAR forms tested were not consistently, properly completed and authorized by the
    Grant Officer (6 of 146 items tested; all exceptions related to ETA).
•   Instances in which the grantees submitted their SF 269s in a timely manner, but
    DOL did not record the SF 269s in a timely manner (5 of 226 items tested; all
    exceptions related to ETA).

Without adequate controls over the grant process, grant expenses, advances, payables,
and undelivered orders (UDOs) could be misstated. Based on the errors we identified
in our June 30, 2006, testwork, we projected6 that expenses were overstated by
$36,640,903, advances were understated by $19,044,655, payables were understated
by $519,805, and UDOs were overstated by $2,234,499. The $36 million error
exceeded our audit difference posting threshold, and as a result, was included in the
summary of unadjusted audit differences attached to the FY 2006 management
representation letter.

Several circumstances contributed to these conditions, as follows:

•   ETA does not maintain adequate support for communications with grantees to
    resolve issues such as delinquent reporting or reporting costs greater than the
    obligations.

6
 This statistical projection utilized a confidence level of 96% and precision of 3%.
80                                                                                  Prepared by KPMG LLP
                                            for the U.S. Department of Labor—Office of Inspector General
                                                                         Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


• OASAM does not maintain a log or record detailing how suspense transactions are
  resolved when further research is required.
• ETA and Veterans’ Employment and Training Service (VETS) do not have an
  established, supervisory review of the grant award process. The appropriate
  individuals are required to sign the NOA and OAR, but no procedures are in place for
  an independent person to review these documents to verify all procedures have
  been followed.
• ETA does not adequately verify that all required progress report desk reviews are
  completed, as no supervisory review procedure is in place to ensure that the FPOs
  are performing the progress report desk reviews for all of their assigned grantees.
• ETA does not have any procedures in place to ensure that submitted cost reports
  are recorded in a timely manner.

GAO’s Standards for Internal Control in the Federal Government states, “Control
activities occur at all levels and functions of the entity. They include a wide range of
diverse activities such as approvals, authorizations, verifications, reconciliations,
performance reviews, maintenance of security, and the creation and maintenance of
related records which provide evidence of execution of these activities as well as
appropriate documentation. Control activities may be applied in a computerized
information system environment or through manual processes.” GAO’s Standards for
Internal Control in the Federal Government also provides examples of control activities,
which include “reviews by management at the functional or activity level.”

The current DLMS does not prescribe specific policies for grant maintenance and
monitoring; this is done on an agency-by-agency basis. For example, ETA Order No. 1-
03 prescribes grant award and post-award grant management responsibilities and
breaks these responsibilities down by Performance and Administrative Offices, Program
Offices, and Regional Offices.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

1. Enforce procedures which require a detailed review of the “Delinquent Cost Report”
   every quarter for the entire year.
2. Require FPOs or the individuals contacting the delinquent grantee to maintain
   accurate records of the communication and results.
3. Require supervisors to review a sample of delinquent cost reports to confirm that the
   FPO is resolving the situation timely, and to document this review.
4. Assign an individual to review the “Cost Exceeds Obligation Report” every quarter
   and verify that either the grantees are being followed up on through another review
   (e.g., delinquent grantee report) or assign an FPO to resolve the situation.
5. Require supervisors to review a sample of progress report desk reviews to confirm
   that the reports are being completed, and to document this review.


Prepared by KPMG LLP                                                                         81
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


6. Require FPOs to ensure that cost reports submitted by their assigned grantees are
   posted to DOLAR$ timely.

Management’s Response

“Throughout the course of the audit, we were not provided with detailed information
supporting the auditors’ conclusions with respect to this finding, and only recently
(January, 2007) received a list of the documents cited by the auditors. Accordingly, we
have not had sufficient time to verify the audit results and/or to develop an informed,
meaningful response.

However, based on a preliminary review of some of the listed documents, we take
exception to certain conclusions reached by the auditors, as follows:

     •   The audit finding describes ETA’s internal control procedures over various grant
         processes, refers to our cost reporting system, and refers to one of our offices
         (DFSS). However, the conditions cited by the auditors include errors identified
         for other agencies’ grants, and in a couple of cases include findings completely
         unrelated to ETA. For example, the auditors state, “Adequate support is not
         maintained for suspense transactions that have to be resolved by the appropriate
         agencies instead of DFSS (1 of 15 days tested).” While this statement refers to
         DFSS, it is actually related to another granting agency and is entirely unrelated to
         ETA. We believe that this is very misleading and that internal control
         weaknesses unique to another agency should not be presented in an ETA
         finding.

     •   The error rates cited by the auditors appear to be overstated, with respect to
         ETA. For example, the auditors found that the “Grant Agreement/NOA or grant
         modifications tested did not consistently have documentation of proper
         authorization (5 of 152 items tested).” We reviewed the support for this finding
         and found that 133 of these were ETA grants, with only one noted error. We also
         found that the auditors appear to have tested all modifications issued for each
         grant document during the audit interim period (October 2005 through June
         2006). This means that the auditors tested multiple transactions for each grant
         document sampled, and the total number of transactions tested would be in the
         hundreds (there were over 400 obligations transactions recorded during the
         interim period for the sampled grants, as well as an unknown number of
         modifications that would not require a DOLAR$ transaction, such as a period of
         performance change, etc.). Therefore, the actual results were one modification
         out of well over 400 modifications tested. The same would be true of the other
         sample results cited by the auditors in this finding.

     •   Even as stated in the finding, the sample results support a very low level of risk,
         and we do not believe justify even a management advisory comment. Both GAO
         and OMB address the concept that internal controls should be designed to
         provide reasonable assurance that misstatements, noncompliance, etc. would be
82                                                                       Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


       prevented or detected on a timely basis. OMB A-123 states, “Federal managers
       must carefully consider the appropriate balance between controls and risk in their
       programs and operations. Too many controls can result in inefficient and
       ineffective government….the benefits of controls should outweigh the cost."

   •   Based on the detail provided by the auditors, one of the auditors’ statements,
       “instances in which grantees report costs greater than the obligation amount (i.e.,
       a type of suspense transaction) are not resolved in a timely manner”, appears to
       have been supported by a sample of one.

Based on the results of our preliminary review, we conclude that additional time is
necessary to properly evaluate the remaining documents and assess the need for
potential corrective actions. Accordingly, we are unable to provide a meaningful
response to this finding within the timeframe requested by the OIG.”

Auditors’ Conclusion

We agree that Management must carefully consider the appropriate balance between
controls and risk in their programs and operations, and that the benefits of controls
should outweigh the cost. However, we believe that the recommendations identified
above represent valid and appropriate recommendations related to the grant processes
at DOL. These recommendations are considered unresolved, pending ETA’s full
evaluation of our audit findings.

Recommendation

7. We recommend that the Assistant Secretary for Administration and Management
   develop policies and procedures for maintaining a log and supporting documentation
   for the resolution of each suspense transaction on the Report L602.

Management’s Response

“Beginning in January 2007, OASAM will extend the length of time it maintains
documentation associated with resolving suspense PMS suspense items. Our current
procedures meet the recommendation for maintaining a suspense log; however the
documentation is currently disposed of on a monthly basis. A copy of the L602 is
received within a day after a suspense item is recorded. The suspense is researched
and corrected with a notation on the report of the correction. These reports, notations
on resolution, and any supplementary information filed with the report serve as our log
for resolution. In addition the OCFO monitors the L602 file and contacts OASAM on the
status of resolution when items remain unresolved for an extended period. Currently,
the report is kept for one month and then discarded after receipt of the SF224 affected
by the transaction, but OASAM will maintain this documentation through the audit period
for review.”


Prepared by KPMG LLP                                                                         83
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

Recommendation

8. We recommend that the Assistant Secretary for Employment and Training and the
   Assistant Secretary for the Veterans' Employment and Training Service develop and
   implement a quarterly quality control procedure that requires the selection and
   review of a sample of Grant Agreements/NOA, modifications, and OAR forms to
   ensure proper documentation of authorization.

Management’s Response

VETS Response:
“VETS will strengthen its supervisory review of the grant award process.

Current agency review procedures include quality control reviews, performed by the
Jobs for Veterans’ State Grants (JVSG) review panel, comprised of six (6)Disabled
Veterans’ Outreach Program (DVOP)/Local Veteran’s Employment Representative
(LVER) Expert Cluster (DLEC) members and staff from the National Office, as well as,
Jobs for Veterans’ Lead Center (JVLC).

The review panel is supervised by either the program Chief or the JVLC Lead. NOA
information is provided by the JVLC or National Office to each region based on the
approved Agency Allocations. The JVLC reviews NOAs for accuracy and verifies that
all policies have been followed pursuant to issuance.

To specifically address this recommendation, VETS will implement procedures for an
independent person to perform a quarterly quality control review, which will cover a
sample of Grant Agreements/NOA, modifications, and OAR forms. This will serve as an
additional internal control for the purpose of reducing agency risk and verifying all
procedures have been followed.”

ETA Management’s Response:

Included within above response to recommendation nos. 1 through 6.




84                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

16. Grant Closeouts

Within 90 days after the expiration or termination of the grant, the grantee must submit
all financial, performance, and other reports required as a condition of the grant. The
Grants Closeout Unit identifies grants to be closed based on the grant end date.
Because most grants expire at March 31, May 31, June 30, September 30, and
December 31, a Closeout Specialist generates a report within the Grant Tracking
System (GTS) module of EBSS approximately a month prior to these five dates to
obtain a listing of those grants that have that particular grant end date. In order to
determine whether the grant has been closed out, the specialist then compares the
listing to the Grants Closeout System (GCS), which is an external module within EBSS.

The Closeout Specialist obtains applicable grants files and contacts the FPO, Grant
Officer, and/or the grantee to determine if the grant period has been or will be extended.
If there has not been or will not be an extension, the specialist begins the closeout
process. The specialist updates an internal closeout inventory tracking system (i.e.,
ACCESS database) maintained by the Closeout Unit. Once logged into the tracking
system, the expired grant is assigned to a Closeout Specialist. Within 30 days after the
case is assigned, the specialist sends an email notification via GCS to the grantee to
initiate the closeout process. The notification indicates that the grant is expiring and if
the grantee agrees, the grantee must complete the required closeout documents within
90 days from the expiration date. If the grantee does not report online (there are very
few grantees who report manually), a hard-copy notification and grant package is sent
(i.e., via email or facsimile) to the grantee.

Once the grantee has submitted the closeout forms, the Closeout Specialist receives an
email notification that the forms are ready to be reviewed in GCS. The specialist has 30
days from the receipt of the grant forms to review, analyze, and reconcile the closeout
documents. The specialist works with the FPO to resolve any financial discrepancies to
ensure that the information meets the grant requirements and agrees with DOLAR$ and
the final SF 269 (or equivalent). The government property closeout inventory
certification is given to the ETA Property Officer for review and certification. The FPO
completes a Certification for Contractor/Grantee Performance and once approved, signs
and dates the form. Once all of the documents have been accepted and a financial
reconciliation completed, which compares the final cost report submitted by the grantee
to the costs reported in DOLAR$, the specialist completes an Accounting Checklist,
which indicates the pertinent information for the grant, the net amount paid by DOL, the
costs incurred, and the amount to be deobligated. The Grant Officer completes and
signs a Grant Closeout Record Preliminary Settlement form, and the package is then

Prepared by KPMG LLP                                                                         85
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


sent to DFSS for reconciliation between HHS’ PMS and DOLAR$ (and deobligation, if
applicable).

DFSS date-stamps and log closure documents into a closure log. The accountant
reviews the Accounting Checklist for accuracy and proper signatures for deobligations,
and determines that the Grant Closeout Record Preliminary Settlement form is signed
and dated by a Grant Officer. Once this information is verified, the accountant
processes the grant closeout in DOLAR$.

During our testing over grant closeout procedures in FY 2006, we noted the following
weaknesses in internal control:

•   All 15 grants that were identified as ‘to be closed’ at March 31, 2006, were not
    closed within the required timeframe. Also, 42 of 45 closed grants tested were not
    closed within the required timeframe (150 days).
•   Closeout Specialists were not consistently reviewing, analyzing, and reconciling the
    closeout documentation within 30 days from the receipt of the grant forms. Of 45
    closed grants tested, we noted 21 instances where this review did not occur within
    the required timeframe.
•   Closeout Specialists were not adequately monitoring the grantee’s closeout status.
    Of 45 closed grants tested, we noted 10 grantees that did not receive any form of
    communication from the Closeout Specialists within 30 days of being assigned the
    grant.
•   The Grant Officer was not consistently approving the Grant Closeout Preliminary
    Record (evidenced by a signature). Of 45 closed grants tested, one form did not
    have the Grant Officer’s signature.
•   Of 45 closed grants tested, one Accounting Checklist did not agree to the supporting
    SF 269 and one deobligation was not properly approved.
•   In our sample of 45 closed grants, we noted 22 instances where a deobligation of
    grant funds was necessary. Of these 22 instances, 19 deobligations were not
    completed and recorded in DOLAR$ in a timely manner (within 120 days of the
    expiration date).
•   We selected a sample of 41 footprints with UDO balances but no FY 2006 activity as
    of September 30, 2006. Five of these balances should have been deobligated as of
    that date.

Without adequate controls over the closeout process, grants are not closed in a timely
manner. Additionally, UDOs may be overstated since remaining UDO balances of
expired grants are not deobligated in a timely manner. Based on the errors we
identified during our UDO testwork, the UDO balance as of September 30, 2006, was
projected7 to be overstated by $57,352,768, and we included this difference on the
summary of unposted audit differences that was attached to the FY 2006 management
representation letter.

7
 This statistical projection utilized a confidence level of 96% and precision of 6%.
86                                                                                  Prepared by KPMG LLP
                                            for the U.S. Department of Labor—Office of Inspector General
                                                                         Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


While one of the factors for the weaknesses in the closeout process is that the grantees
are not submitting the closeout packages within the required 90 day timeframe, no
supervisory review of the closeout status of grants occurs. The status of grant
closeouts is tracked within the Grant Closeout Unit’s internal closeout inventory tracking
system, and it is the responsibility of the assigned Closeout Specialist to follow up with
the grantee as necessary to ensure that the closeout documents are received in a
timely manner. However, no periodic review (e.g., weekly or monthly) is performed by
the supervisor to ensure that the Closeout Specialists are adequately communicating
with the grantees and that grants are timely closed. Additionally, supervisors do not
have a formal review process to verify that all closeout documentation (e.g., Grant
Closeout Preliminary Record, Accounting Checklist, and deobligation entries) are
properly approved and agree to supporting documentation.

GAO’s Standards for Internal Control in the Federal Government states, “Control
activities occur at all levels and functions of the entity. They include a wide range of
diverse activities such as approvals, authorizations, verifications, reconciliations,
performance reviews, maintenance of security, and the creation and maintenance of
related records which provide evidence of execution of these activities as well as
appropriate documentation. Control activities may be applied in a computerized
information system environment or through manual processes.” GAO’s Standards for
Internal Control in the Federal Government also provides examples of control activities,
which include “reviews by management at the functional or activity level.”

The current DLMS does not prescribe specific policies for grant maintenance and
monitoring; this is done on an agency-by-agency basis. For example, ETA Order No. 1-
03 prescribes grant award and post-award grant management responsibilities and
breaks these responsibilities down by Performance and Administrative Offices, Program
Offices, and Regional Offices.

Recommendation

1. We recommend that the Assistant Secretary for Employment and Training develop
   and implement review procedures within the Closeout Unit that the supervisor will
   perform over the closeout inventory tracking system. These procedures should
   include:

   • Following up on any grants that have not been closed within the required
     timeframes;
   • Contacting the Closeout Specialists who are assigned to grantees that have not
     submitted the closeout packages and are nearing the end of the required time
     frame (90 days) to confirm that communication is occurring with the grantees;
   • Reviewing the status of grants where the closeout package has been submitted
     by the grantee;
   • Ensuring that the grant specialists are reviewing and reconciling the closeout
     documents within the required 30 day timeframe;

Prepared by KPMG LLP                                                                         87
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


      • Ensuring that grants that are with DFSS are properly and timely being
        deobligated in DOLAR$; and
      • Reviewing, on a sample basis, closeout documentation, specifically the Grant
        Closeout Preliminary Record, Accounting Checklist, and deobligation entries, to
        ensure that they are all properly approved and agree to all supporting
        documentation.

Management’s Response

“The procedures recommended by the auditors for the Closeout Unit are already in
place. However, ETA will review the Closeout Unit Handbook to ensure that all proper
closeout procedures are in writing and review these procedures with all staff to ensure
they are being followed. In addition, ETA will examine the Closeout Handbook sections
covering “Extensions” to ensure that extension requests: 1) by grantees for the
submission of closeout documents; 2) by Closeout Specialists for the reconciliation of
reports are fully explained and accepted as standard operating procedures when
appropriate. These reviews and appropriate action, if needed, will be completed by
September 30, 2007.”

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

17.       Federal Employees Compensation Act (FECA) Medical Evidence

In FY 2003, the OIG made the following recommendation:

Recommendation

We recommend that the Chief Financial Officer ensure that the Assistant
Secretary for Employment Standards develops and implements effective controls
(e.g. automated procedures) that will ensure Claims Examiners obtain and review
current medical evidence as required by FECA program policy.

For FY 2006, we noted that 6 of 102 case files tested for current medical evidence did
not contain current medical evidence as required by Office of Workers’ Compensation
Programs (OWCP) policy. Claimants being paid on the periodic roll (with the exception
of schedule awards) require updated medical information every 1, 2 or 3 years,
depending on case status. The lack of current medical evidence does not necessarily
indicate that improper payments are being made (i.e., a permanently disabled claimant),
but is a requirement that Claims Examiners (CEs) should adhere to. Proper use of the
Periodic Eligibility Review (PER) screen could help alleviate this issue.


88                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


Management’s Response

“Implementation of the functions within iFECS that will provide automated reminders for
updating medical evidence was completed on March 31, 2006. OWCP management
will perform a review to ensure that current medical evidence is on file as a part of the
FECA accountability reviews beginning in February 2007.”

Auditors’ Conclusion

This recommendation remains resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.

18. FECA System Enhancements

According to the FECA Procedures Manual, postcards (Form CA-801) should be sent to
claimant employing agencies when a case is created in the Integrated Federal
Employees Compensation System (iFECS). The postcard notifies the agency that one
of their employees is now a claimant in the FECA program. We noted one improper
case on the iFECS-generated Case Create Report which is used to generate the post
cards to be sent to the employing agency. This particular case was created in 1978 and
had since been closed. The reopening of the case during 2006 within iFECS initiated its
inclusion in the Case Create Report. We noted a mitigating management review control
to identify and remove the postcard; however, a system change could correct the issue.
We noted that management has taken steps to identify this issue to the iFECS Change
Control Board.

Additionally, although a contractor performs medical bill pay processing for OWCP,
district offices are required to review medical bills in excess of $50,000. We noted one
instance where a bill greater than $50,000 was paid by the OWCP medical bill pay
contractor without OWCP approval. The district office was not notified of this payment
by the contractor. We noted that OWCP has initiated a system change request to
automate the identification of bills greater than $50,000 to ensure these bills are
reported to the national and district offices on a weekly basis.

Recommendations

1. We recommend that the Chief Financial Officer and Assistant Secretary for the
   Employment Standards ensure:

   •   System changes are made to notify OWCP of medical bills in excess of $50,000
       that require OWCP review and approval.




Prepared by KPMG LLP                                                                         89
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


     • The medical bill contractor understands the importance of adhering to the OWCP
       requirement to review and approve bills in excess of $50,000.
     • System changes are made so the CA-801 is only generated for new claimant
       cases.

Management’s Response

“OWCP has notified the vendor of the specific error in processing TCN
00607271042046046 and taken steps to automate a restriction on the vendor’s ability to
authorize payments of $50,000 or more. The vendor is aware of the requirement for
District Director approval for payment of these bills as evidenced by KPMG’s review in
the district offices of their processing of transactions of $50,000 or more that had been
referred by the vendor. At the time of the audit, while the vendor’s system automatically
identified bills submitted for $50,000 or more, there was no automated restriction on the
vendor’s ability to authorize payment. In response to the audit finding, OWCP initiated a
system change request for an additional edit that will identify bills processed to pay in
amounts of $50,000 or above and limit authorization of the payment or denial of these
bills to the District Directors. The final part of the change request will result in the
production of a monthly report listing all medical payments of $50,000 or above. On a
monthly basis, as part of the internal district office audit process, each office will review
their report to ensure they did disposition and were notified of each bill on the report.
Any discrepancies will be reported to the National office. These actions are scheduled
for completion by March 31, 2007.

System changes to Case Create to limit the generation of a CA-801 to new claimant
cases were completed and deployed October 11, 2006.”

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2007 audit procedures will
determine whether the recommendation has been adequately addressed and the
condition closed.




90                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements




Appendices




Prepared by KPMG LLP                                                                         91
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements




92                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
                                                 Findings and Recommendations Identified in an
                                                  Audit of the Consolidated Financial Statements


                                                                APPENDIX A
                                                ACRONYMS AND ABBREVIATIONS

A&E         Architecture and Engineering
ADP         Automatic Data Processing
APO         Accountable Property Office
BLS         Bureau of Labor Statistics
CAM         Cost Analysis Manager
CAMO        Capitalized Asset Management Officer
CATARS      Capitalized Asset Tracking and Reporting System
CE          Claims Examiner
DBFS        Division of Budget and Facilities Support
DFEC        Division of Federal Employees Compensation
DLMS        Department of Labor Manual Series
DOL         U. S. Department of Labor
DOLAR$      Department of Labor Accounting and Related Systems
DVOP        Disabled Veterans’ Outreach Program
EBSA        Employee Benefits Security Administration
ESA         Employment Standards Administration
ETA         Employment and Training Administration
FECA        Federal Employees Compensation Act
FFMIA       Federal Financial Management Improvement Act
FMS         Financial Management Service
FY          Fiscal Year
GAO         Government Accountability Office
GPRA        Government Performance and Results Act
iFECS       Integrated Federal Employees Compensation System
IMIS        Integrated Management Information System
IT          Information Technology
JFMIP       Joint Financial Management Improvement Program
LVER        Local Veterans’ Employment Representative
MCA         Managerial Cost Accounting
MSHA        Mine Safety and Health Administration
OASAM       Office of the Assistant Secretary for Administration and Management
OCFO        Office of the Chief Financial Officer




Prepared by KPMG LLP                                                                         93
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-07-001-13-001
Findings and Recommendations Identified in an
Audit of the Consolidated Financial Statements


ACRONYMS AND ABBREVIATIONS (CONTINUED)

OCIO        Office of the Chief Information Officer
OFAS        Office of Financial and Administrative Services
OIG         Office of Inspector General
OMB         Office of Management and Budget
OSHA        Occupational Safety and Health Administration
OWCP        Office of Workers' Compensation Programs
PER         Periodic Entitlement Review
PMA         President’s Management Agenda
POAM        Plans of Action and Milestones
PP&E        Property, Plant and Equipment
SFFAS       Statement of Federal Financial Accounting Standards
SSA         Security Self-Assessment
UCAC        Unemployment Compensation Advisory Council
VETS        Veterans’ Employment and Training Service
WCF         Working Capital Fund




94                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-001-13-001
